TIGTA SEMIANNUAL REPORT TO CONGRESS




                                 April 1, 2012 – September 30, 2012   3
                                  TIGTA SEMIANNUAL REPORT TO CONGRESS




2   April 1, 2012 – September 30, 2012
          TIGTA SEMIANNUAL REPORT TO CONGRESS




       Inspector General’s
       Message to Congress
It is my honor to submit this Semiannual Report to Congress
summarizing the accomplishments of the Treasury Inspector
General for Tax Administration (TIGTA) for the reporting
period of April 1, 2012 through September 30, 2012. This
report highlights the most notable audits, investigations, and
inspections and evaluations performed by TIGTA, as we
continue to work diligently to provide oversight of the Internal
Revenue Service (IRS) and protect the integrity of Federal tax
administration.

In 1998, Congress created TIGTA to ensure that our Nation’s tax system is effectively,
efficiently, and fairly administered, and that the IRS is held to a high level of accountability.
The Inspector General Act of 1978, as amended, requires that we submit this report
summarizing our independent audit and investigative oversight of tax administration,
including IRS activities, systems, and operations. I remain dedicated to upholding this
important mission.

During this reporting period, TIGTA’s combined audit and investigative efforts have
recovered, protected, and identified monetary benefits totaling $22.4 billion. Our Office
of Audit has completed 83 audits, and the Office of Investigations has closed 1,814
investigations, over the past six months.

Among the important challenges currently confronting the IRS in its efforts to administer
the Nation’s tax system are those of increasing voluntary tax compliance and
addressing the growing threat of identity theft and tax fraud. During this reporting
period, TIGTA issued several reports, and I testified before the House Committee on
Oversight and Government Reform, Subcommittee on Government Organization,
Efficiency, and Financial Management, concerning TIGTA’s oversight of the IRS’s
efforts to surmount these challenges.

The Tax Gap is defined as the difference between the estimated amount taxpayers owe
and the amount they voluntarily and timely pay for a tax year. Increasing voluntary
taxpayer compliance and reducing the Tax Gap remain the focus of many IRS
initiatives. Nevertheless, the IRS continues to face significant challenges in obtaining
complete and timely compliance data and developing the methods necessary to
interpret the data. Even with improved data collection, the IRS will need to develop
broader strategies and conduct more research to determine which actions are most
effective in addressing taxpayer noncompliance.

The IRS has also expanded its efforts to detect and prevent identity theft. However, the
impact of identity theft on tax administration is significantly greater than the amount the
IRS detects and prevents. TIGTA’s analysis of tax returns using characteristics of IRS-


                                                     April 1, 2012 – September 30, 2012      3
                                       TIGTA SEMIANNUAL REPORT TO CONGRESS


confirmed identity theft has identified approximately 1.5 million tax returns with
potentially fraudulent tax refunds totaling in excess of $5.2 billion. TIGTA estimates that
the IRS could potentially issue $21 billion in fraudulent tax refunds over the next five
years as a result of identity theft.

However, delayed access to third-party income and withholding information makes it
difficult for the IRS to detect fraudulent tax refunds in the course of processing tax
returns. During this six-month period, TIGTA issued a report containing several
recommendations for the IRS to develop or improve processes that will increase its
ability to detect and prevent the issuance of fraudulent tax refunds resulting from identity
theft. TIGTA also issued recommendations regarding how the IRS could more
effectively provide assistance to victims of identity theft and better communicate identity
theft procedures to taxpayers.

Other concerns addressed by TIGTA during this reporting period regarding the Nation’s
system of tax administration include: the risk of unauthorized access by IRS employees
and third-party tax professionals to taxpayers’ sensitive tax return information; the
current status of the IRS’s efforts to improve the effectiveness of its Whistleblower
Program; the IRS’s implementation of management controls to improve the ability of its
Exempt Organizations function to properly oversee and timely process referrals; and the
importance of strengthening procedures employed by the IRS to resolve delinquent tax
accounts of Federal agencies and assist them with understanding and meeting their tax
responsibilities.

In the international arena, TIGTA continued to execute risk assessment inspections
designed to highlight challenges to the effectiveness of the IRS’s international activities.
These inspections are designed to be repeated over time and across all IRS locations
involved in international operations. The data gathered will subsequently be analyzed
for potential trends and other indicators that will assist management in identifying
potential risk areas in the IRS’s international operations.

I would like to once again acknowledge the outstanding efforts of our auditors,
investigators, evaluators, attorneys, and support personnel who work tirelessly to fulfill
our responsibility of serving the American people. While reflecting on this year and
looking forward to the next, TIGTA stands committed to carrying out its mission to make
our Nation’s tax system more efficient, effective, and fair.

                                              Sincerely,



                                      J. Russell George
                                      Inspector General




4        April 1, 2012 – September 30, 2012
              TIGTA SEMIANNUAL REPORT TO CONGRESS




                                          Table of Contents
Inspector General’s Message to Congress ................................................................                                  3

TIGTA’s Profile .................................................................................................................         7
        Statutory Mandate ......................................................................................................          7
        Organizational Structure .............................................................................................            8
        Authorities ...................................................................................................................   8

TIGTA’s Highlights ..........................................................................................................
                                                                                                               9
        Examples of High-Profile Cases by the Office of Investigations .................................. 9
        Examples of High-Profile Reports by the Office of Audit ............................................. 10

Promote the Economy, Efficiency, and Effectiveness of Tax Administration .... 13
        Security for Taxpayer Data and Employees ................................................................                         13
        Tax Compliance Initiatives ..........................................................................................             15
        Modernization .............................................................................................................       18
        Implementing Major Tax Law Changes .......................................................................                        21
        Fraudulent Claims and Improper Payments ................................................................                          23
        Providing Quality Taxpayer Service Operations ..........................................................                          26
        Achieving Program Efficiencies and Cost Savings ......................................................                            27

Protect the Integrity of Tax Administration ............................................................... 29
        Safeguarding the IRS ..................................................................................................           29
        Investigating Identity Theft ..........................................................................................           30
        Protecting Sensitive Taxpayer Information ..................................................................                      32
        Combating Phishing Schemes ....................................................................................                   33
        Office of Investigations Performance Model ................................................................                       35
        Employee Integrity Investigations ................................................................................                36
        Employee and Infrastructure Security .........................................................................                    38
        External Attempts to Corrupt Tax Administration ........................................................                          39

Advancing Oversight of America’s Tax System ....................................................... 41

TIGTA’s International Programs .................................................................................. 45

American Recovery and Reinvestment Act of 2009 ................................................. 51

An Organization That Values Its People ..................................................................... 55

Congressional Testimony ............................................................................................. 57

Audit Statistical Reports ................................................................................................ 61
        Reports With Questioned Costs .................................................................................. 61
        Reports With Recommendations That Funds Be Put to Better Use ............................. 62
        Reports With Additional Quantifiable Impact on Tax Administration ............................ 63

Investigations Statistical Reports ................................................................................ 65
        Significant Investigative Achievements ....................................................................... 65



                                                                              April 1, 2012 – September 30, 2012                           5
                                                    TIGTA SEMIANNUAL REPORT TO CONGRESS


       Status of Closed Criminal Investigations ..................................................................... 66
       Criminal Dispositions .................................................................................................. 66
       Administrative Dispositions on Closed Investigations .................................................. 66

Ap p e n d i c e s
Appendix I – Statistical Reports – Other .................................................................... 67
       Audit Reports With Significant Unimplemented Corrective Actions ............................. 67
       Other Statistical Reports ............................................................................................. 73

Appendix II – Audit Products ........................................................................................ 75

Appendix III – TIGTA’s Statutory Reporting Requirements .................................... 79

Appendix IV – Section 1203 Standards ...................................................................... 89

Appendix V – Implementing Section 989C of the Dodd-Frank Wall Street Reform
and Consumer Protection Act ...................................................................................... 91

Appendix VI – Data Tables Provided by the Internal Revenue Service ............... 93
       Internal Revenue Service Memorandum .....................................................................              93
       Report of Employee Misconduct, Summary by Disposition Groups .............................                             94
       Report of Employee Misconduct, National Summary ..................................................                     95
       Summary of Substantiated I.R.C. § 1203 Allegations Recorded in ALERTS ...............                                  96

Glossary of Acronyms ................................................................................................... 97




6           April 1, 2012 – September 30, 2012
          TIGTA SEMIANNUAL REPORT TO CONGRESS




                              TIGTA’s Profile
         he Treasury Inspector General for Tax


T        Administration (TIGTA) provides
         independent oversight of the Department
         of the Treasury’s matters involving
         Internal Revenue Service (IRS) activities,
the IRS Oversight Board, and the IRS Office of
Chief Counsel. Although TIGTA is placed
                                                              •
                                                                     Statutory Mandate


                                                                  Protect against external
                                                                  attempts to corrupt or threaten
organizationally within the Department of the                     IRS employees.
Treasury and reports to the Secretary of the                  •   Provide policy direction and
Treasury and to Congress, TIGTA functions                         conduct, supervise, and
independently from all other offices and bureaus                  coordinate audits and
within the Department.                                            investigations related to IRS
                                                                  programs and operations.
TIGTA is devoted to all aspects of activity related           •   Review existing and proposed
to the Federal tax system as administered by the                  legislation and regulations
IRS. TIGTA protects the public’s confidence in the                related to IRS programs and
tax system by identifying and addressing the IRS’s                operations, and make
management challenges and implementing the                        recommendations concerning
priorities of the Administration and the Department               the impact of such legislation or
of the Treasury.                                                  regulations.
                                                              •   Promote economy and
TIGTA’s organizational structure is comprised of                  efficiency in the administration
the Office of the Inspector General and six                       of tax laws.
functional offices: the Office of Investigations; the         •   Prevent and detect waste,
Office of Audit; the Office of Inspections and                    fraud, and abuse in IRS
Evaluations; the Office of Mission Support; the                   programs and operations.
Office of Information Technology; and the Office of           •   Inform the Secretary of the
Chief Counsel (see chart on page 8).                              Treasury and Congress of
                                                                  problems and deficiencies
TIGTA conduct audits, inspections and                             identified and of the progress
                                                                  made in resolving them.
evaluations, and investigations designed to:

   •   Promote the economy, efficiency, and
       effectiveness of tax administration; and
   •   Protect the integrity of tax administration.




                                                      April 1, 2012 – September 30, 2012        7
                                                   TIGTA SEMIANNUAL REPORT TO CONGRESS



                                Organizational Structure

                                                    Inspector General

                                                     Principal Deputy
                                                    Inspector General




                                              Deputy
    Deputy              Deputy               Inspector             Associate                Chief                  Chief
   Inspector           Inspector            General for             Inspector            Information              Counsel
  General for         General for           Inspections            General for              Officer
Investigations           Audit                  and                  Mission
                                            Evaluations              Support




                                                Authorities
         TIGTA has all of the authorities granted under the Inspector General Act of 1978, as
         amended. 1 TIGTA has access to tax information in the performance of its tax
         administration responsibilities. TIGTA must also report potential criminal violations
         directly to the Department of Justice. TIGTA and the Commissioner of the IRS have
         established policies and procedures delineating responsibilities to investigate potential
         criminal offenses under Internal Revenue laws. In addition, the Internal Revenue
         Service Restructuring and Reform Act of 1998 (RRA 98)2 amended the Inspector
         General Act of 1978 to give TIGTA the statutory authority to carry firearms, execute and
         serve search and arrest warrants, serve subpoenas and summonses, and make arrests
         as set forth in Internal Revenue Code (I.R.C.) Section (§) 7608(b)(2).




         1
          5 U.S.C. app. 3 (amended 2008).
         2
          Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C.
         app., 16 U.S.C., and 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).



         8         April 1, 2012 – September 30, 2012
           TIGTA SEMIANNUAL REPORT TO CONGRESS




                             TIGTA’s Highlights
Examples of High-Profile Cases by the Office of
Investigations:
Keeping IRS Employees Safe from Threats and Assaults:
Jason Bowser Arrested for Threatening to Murder IRS Agents

On June 7, 2012, in McCook, Illinois, Jason Bowser was arrested for making a threat
against a Federal official. 3 Bowser was indicted by a Federal grand jury on April 25,
2012, for threatening to assault and murder IRS agents with the intent to impede,
intimidate, and interfere with IRS agents while engaged in the performance of their
official duties. 4

Protecting Taxpayers from Identity Theft:
IRS Employee George Albright Sentenced for Aggravated Identity Theft and False
Claims

On August 15, 2012, in the Middle District of Tennessee, IRS employee George L.
Albright was sentenced to 24-months and one-day imprisonment, followed by one year
of supervised release, for committing aggravated identity theft and making false claims.
Albright was also ordered to pay restitution to his victims in the amount of $9,669, and a
court assessment of $200. 5 Albright pled guilty as charged to the two counts on May
18, 2012.

According to court documents, Albright accessed Federal tax records to obtain the
names, Social Security Numbers, and dates of birth of other persons. He then used this
information between early 2008 and early 2011 to electronically file nine fraudulent
Federal tax returns which were sent to the U.S. Department of the Treasury and the
IRS. 6

Albright falsified these persons’ earnings, Federal taxes withheld from their earnings,
and Federal tax refunds due. He requested refunds on these returns and then directed
payments totaling $10,954 to be electronically deposited into bank accounts which he
controlled. Albright ultimately received refunds from eight of nine fraudulent returns
totaling $9,669. 7


3
  M.D. Pa. Arrest Warrant executed June 7, 2012.
4
  M.D. Pa. Indict. filed Apr. 25, 2012.
5
  M.D. Tenn. Judgment filed Aug. 15, 2012.
6
  M.D. Tenn. Plea Agr. filed May 18, 2012.
7
  Id.


                                                   April 1, 2012 – September 30, 2012     9
                                       TIGTA SEMIANNUAL REPORT TO CONGRESS



Examples of High-Profile Reports by the Office of
Audit:
There Are Billions of Dollars in Undetected Tax Refund Fraud Resulting From
Identity Theft

Undetected tax refund fraud results in significant unintended Federal outlays and
erodes confidence in our Nation’s tax system. The impact of identity theft on tax
administration is significantly greater than the amount the IRS detects and prevents.
TIGTA’s analysis of tax returns using characteristics of IRS-confirmed identity theft
identified approximately 1.5 million tax returns with potentially fraudulent tax refunds
totaling in excess of $5.2 billion. TIGTA estimated that the IRS could potentially issue
$21 billion in fraudulent tax refunds over the next five years as a result of identity theft.

The IRS has expanded its efforts to detect and prevent identity theft. However, delayed
access to third-party income and withholding information makes it difficult for the IRS to
detect fraudulent tax refunds in the course of processing tax returns. Third parties are
not required to submit income and withholding documents to the IRS until March 31, yet
taxpayers can begin filing tax returns in mid-January. While the IRS does not have
access to all third-party information documents at the time tax returns are filed, some
third-party information is available. However, the IRS has not developed processes to
obtain and use this third-party information. The use of direct deposits, including debit
cards, to claim fraudulent tax refunds also increases the risk that the IRS will fail to
detect identity theft.

TIGTA made several recommendations for the IRS to develop or improve processes
that will increase its ability to detect and prevent the issuance of fraudulent tax refunds
resulting from identity theft. In addition, TIGTA agreed with the IRS Fiscal Year 2012
budget proposal that legislation is needed to expand the IRS’s access to, and authority
to use, the National Directory of New Hires database for the purposes of detecting
identity theft.

IRS management agreed with these recommendations and stated that it has taken or
plans to take corrective actions. However, in view of its ongoing efforts to improve the
detection of identity theft, the IRS did not agree with TIGTA’s estimate that $21 billion in
potentially fraudulent refunds could result from identity theft over the next five years.
TIGTA agreed that the IRS’s ongoing efforts will help reduce fraudulent refunds.
However, TIGTA’s estimate of $21 billion takes into consideration the estimated impact
of the IRS’s continued efforts to improve its identity theft filters in the 2012 Filing
Season.
Reference No. 2012-42-080




10       April 1, 2012 – September 30, 2012
             TIGTA SEMIANNUAL REPORT TO CONGRESS



Most Taxpayers Whose Identities Have Been Stolen to Commit Refund Fraud Do
Not Receive Quality Customer Service

The Federal Trade Commission reported that identity theft was the number one
complaint that it received in Calendar Year (CY) 2011, and that Government
documents/benefits fraud was the most common form of reported identity theft. As of
December 31, 2011, the IRS’s Incident Tracking Statistics Report showed that 641,052
taxpayers were affected by identity theft in CY 2011. The IRS is not effectively
providing assistance to victims of identity theft, and current processes are not adequate
to communicate identity theft procedures to taxpayers, resulting in increased burden for
victims of identity theft.

When taxpayers call to advise the IRS that their electronic tax return has been rejected
because it appeared that another individual had already filed a tax return using the
same identity, the IRS instructs them to mail in a paper tax return with the Form 14039,
Identity Theft Affidavit, and to attach supporting identity documents. However, the IRS
has been processing these tax returns using standard processing procedures.

Identity theft guidelines and procedures are dispersed among 38 different sections of
the Internal Revenue Manual. These guidelines are inconsistent and conflicting, and
not all IRS functions have guidelines on handling identity theft issues. In addition, the
IRS is using little of the data from identity theft cases to identify any trends, etc., that
could be used to detect or prevent future refund fraud.

As a result, TIGTA recommended that the IRS:

      •   Establish accountability for the Identity Theft Program;
      •   Implement a process to ensure that IRS notices and correspondence are not
          sent to the address listed on the identity thief’s tax return;
      •   Conduct an analysis of the letters sent to taxpayers regarding identity theft;
      •   Ensure that taxpayers are notified when the IRS has received their identifying
          documents;
      •   Create a specialized unit in the Accounts Management function to exclusively
          work identity theft cases;
      •   Ensure that all quality review systems used by IRS functions and offices working
          identity theft cases are revised to ensure the selection of a representative sample
          of identity theft cases;
      •   Revise procedures for the Correspondence Imaging System 8 screening process;
          and
      •   Ensure that programming is adjusted so that identity theft issues can be tracked
          and analyzed for trends and patterns.

IRS management agreed with all these recommendations and stated that it has taken or
plans to take corrective actions.
Reference No. 2012-40-050

8
    An IRS inventory control system.


                                                     April 1, 2012 – September 30, 2012        11
                                   TIGTA SEMIANNUAL REPORT TO CONGRESS




12   April 1, 2012 – September 30, 2012
         TIGTA SEMIANNUAL REPORT TO CONGRESS




       Promote the Economy, Efficiency, and
        Effectiveness of Tax Administration
        IGTA’s Office of Audit (OA) strives to promote the economy, efficiency, and


T       effectiveness of tax administration. TIGTA provides recommendations to
        improve IRS systems and operations and to ensure the fair and equitable
        treatment of taxpayers. TIGTA’s comprehensive and independent performance
        and financial audits of the IRS’s programs and operations primarily address
statutorily mandated reviews and high-risk challenges the IRS faces.

The IRS’s implementation of audit recommendations results in:

   •   Cost savings;
   •   Increased or protected revenue;
   •   Protection of taxpayers’ rights and entitlements; and
   •   More efficient use of resources.

Each year, TIGTA identifies and addresses the IRS’s major management and
performance challenges. OA places audit emphasis on statutory coverage required by
RRA 98 and other laws, as well as areas of concern to Congress, the Secretary of the
Treasury, the Commissioner of the IRS, and other key stakeholders.



          Audit Emphasis Areas for April 2012 through September 2012

              •    Security for Taxpayer Data and Employees
              •    Tax Compliance Initiatives
              •    Modernization
              •    Implementing Major Tax Law Changes
              •    Fraudulent Claims and Improper Payments
              •    Providing Quality Taxpayer Service Operations
              •    Achieving Program Efficiencies and Cost Savings




The following summaries highlight significant audits completed in each area of
emphasis during this six-month reporting period:

Security for Taxpayer Data and Employees

As computer use continues to be inextricably integrated into the IRS’s core business
processes, effective information systems’ security becomes essential to ensure that



                                                  April 1, 2012 – September 30, 2012   13
                                         TIGTA SEMIANNUAL REPORT TO CONGRESS


data are protected against inadvertent or deliberate misuse, improper disclosure, or
destruction, and that computer operations supporting tax administration are secured
against disruption or compromise.

Insufficient E-Services Controls May Put Taxpayer Information at Risk

By law, the IRS can generally disclose tax information only to a taxpayer or that
taxpayer’s designee or attorney-in-fact. Taxpayers can authorize individuals to
represent them and can authorize a designee or attorney-in-fact to receive confidential
tax information.

However, taxpayers’ sensitive tax return information is at risk of unauthorized disclosure
when controls are insufficient to ensure that tax professionals properly file a power of
attorney with the IRS before it discloses taxpayer information to them. Current IRS
controls are insufficient to ensure that:

     •   Tax professionals obtain a signed Form 2848, Power of Attorney and
         Declaration of Representation, before submitting it via e-Services Disclosure
         Authorization;
     •   Tax professionals use Form 2848 only for its intended purpose; and
     •   Only tax professionals who can file a power of attorney electronically have
         access to Disclosure Authorization.

Although the IRS requires tax professionals to obtain a taxpayer signature before filing
the power of attorney, existing controls do not ensure compliance with the requirement.
Tax professionals are also using a power of attorney for purposes other than intended,
such as for ordering and providing tax return transcripts for individuals who request
them online. In addition, tax professionals who have access to e-Services but are not
permitted by the IRS to electronically file a power of attorney can circumvent this
control.

Finally, IRS employees have access to e-Services online tools even though they are
prohibited from participating in tax preparation activities. The IRS should not allow IRS
employees to have access to Disclosure Authorization and the Transcript Delivery
System without managerial authorization and a business need.

TIGTA recommended that the IRS:

     •   Conduct periodic data analysis to identify tax professionals using Disclosure
         Authorization for other than its intended purpose;
     •   Verify that tax professionals are obtaining and retaining a signed power of
         attorney before submitting one through Disclosure Authorization;
     •   Periodically review policies for granting Disclosure Authorization access to tax
         professionals; and
     •   Ensure that unauthorized IRS employees do not have access to e-Services, and
         monitor the transactions of employees who do have authorized access.



14         April 1, 2012 – September 30, 2012
          TIGTA SEMIANNUAL REPORT TO CONGRESS



IRS management agreed with most of the recommendations and stated that it plans to
take corrective actions.
Reference No. 2012-40-071

An Enterprise Approach Is Needed to Address the Security Risk of Unpatched
Computers

Patch management is an important element in mitigating the security risks associated
with known vulnerabilities. The IRS has taken some actions to address patch
management weaknesses, but an enterprise approach is needed to fully implement and
enforce patch management policy. Any significant delays in patching software with
critical vulnerabilities provides ample opportunity for persistent attackers to gain control
over the vulnerable computers and get access to the sensitive data they may contain,
including taxpayer data.

TIGTA recommended that the IRS implement enterprise-level responsibility to set and
enforce IRS patch management policy, complete deployment of an automated asset
discovery tool and build an accurate and complete inventory of information technology
assets, take an enterprise-wide approach to buying tools to avoid redundancy and
excessive cost, and complete implementation of controls to ensure that unsupported
operating systems are not putting the IRS at risk.

IRS management agreed with the recommendations and stated that it planned to take
corrective actions for most of the recommendations. Although IRS management agreed
with the intent of the recommendation to hold system owners accountable for patching
computers within prescribed time frames, it stated that its existing procedures
addressed this recommendation and planned to take no corrective actions. While
TIGTA believes further actions could have been taken, it also believes that IRS
management will address this issue through other planned corrective actions.
Reference No. 2012-20-112

Tax Compliance Initiatives
Tax compliance initiatives include the administration of tax regulations, collection of the
correct amount of tax from businesses and individuals, and oversight of tax-exempt and
Government entities. Increasing voluntary taxpayer compliance and reducing the Tax
Gap 9 remain the focus of many IRS initiatives. Nevertheless, the IRS continues to face
significant challenges in obtaining complete and timely compliance data and developing
the methods necessary to interpret the data. Even with improved data collection,
however, the IRS will need to develop broader strategies and conduct more research to
determine which actions are most effective in addressing taxpayer noncompliance.




9
 The IRS defines the Tax Gap as the difference between the estimated amount taxpayers owe and the
amount they voluntarily and timely pay for a tax year.


                                                       April 1, 2012 – September 30, 2012           15
                                          TIGTA SEMIANNUAL REPORT TO CONGRESS


Improved Oversight Is Needed to Effectively Process Whistleblower Claims

The IRS has authority to pay awards to whistleblowers for credible information relating
to violations of Internal Revenue laws that result in the Federal Government’s recovery
of taxes, penalties, interest, and additional amounts collected. Without adequate
oversight of whistleblower claims, the IRS is not as effective as it could be in responding
timely to tax noncompliance issues. Also, the IRS’s effort to improve compliance is
important in reducing the Tax Gap and maintaining the integrity of the voluntary tax
compliance system.

The IRS did not fully and adequately address previously reported internal control
weaknesses on the processing of whistleblower claims. In a prior report, 10 TIGTA found
that information captured on three inventory systems, and subsequently transferred
manually into a single inventory control system known as Entellitrak, was inaccurate.
However, IRS management did not ensure that steps were taken to reconcile and
correct the inaccurate information that was reported in the review.

TIGTA also determined that Whistleblower Program officials did not include a quality
review process to ensure that claims are accurately controlled in the Entellitrak system.
Moreover, guidance to employees did not specify that they review the received date of a
claim, which is critical when reporting business results to internal and external
stakeholders. During its review, TIGTA determined that additional reports could be
generated to evaluate the effectiveness of the Whistleblower Program. Also, timeliness
standards for processing claims have not been fully established, and the existing
monitoring process has not been fully developed to improve efficiencies in processing
whistleblower claims by IRS operating divisions.

In August 2011, the Government Accountability Office issued a report on the IRS’s
Whistleblower Program that included eight recommendations suggesting that the IRS
collect more information in its claim tracking system and case processing activities, and
that it incorporate more data in its reports regarding the effectiveness of the
Whistleblower Program. TIGTA made no recommendations in its audit report on
whistleblower claims because the IRS Whistleblower Office is currently addressing the
recommendations in the Government Accountability Office’s August 2011 report. The
IRS plans to fully implement the corrective actions it has taken in response to the
Government Accountability Office report by October 15, 2012.

During the review, the Whistleblower Program officials declined TIGTA’s request for
direct access to their management information system, citing concerns on their
commitment to protect the identities of whistleblowers and taxpayers and their view that
direct access to the system was not consistent with “need to know”. The Whistleblower
Office and TIGTA management did agree to an alternative method to obtain audit work
from the case management system, as a substitute for direct access, so that TIGTA
could continue the audit. However, the alternative method was not effective.
Reference No. 2012-30-045
10
  TIGTA, Ref. No. 2009-30-114, Deficiencies Exist in the Control and Timely Resolution of Whistleblower
Claims (Aug. 2009).



16        April 1, 2012 – September 30, 2012
         TIGTA SEMIANNUAL REPORT TO CONGRESS



Implementing Better Management Controls Would Improve the Exempt
Organizations Function’s Ability to Properly Oversee and Timely Process
Referrals

Referrals alert the IRS’s Exempt Organizations function to potentially serious violations
of Federal tax law. While the Exempt Organizations function has greatly improved its
timeliness in acknowledging receipt of referrals to submitters, it did not always control
referrals or process them timely. If referrals are not properly accounted for or worked
timely, the Exempt Organizations function may not identify tax-exempt organizations
that may be violating Federal tax law or have referrals ready when new examination
cases are needed.

As a result, TIGTA recommended that the IRS:

   •   Ensure that all referrals are properly controlled, guidance is developed and
       updated, performance goals are developed, and timeliness measures are
       updated; and

   •   Evaluate the priority for additional funding for a more robust case management
       system.

IRS management agreed with the recommendations and stated that it plans to take
corrective actions.
Reference No. 2012-10-058

A Concerted Effort Should Be Taken to Improve Federal Government Agency Tax
Compliance

Federal agencies are exempt from paying Federal income taxes. However, they are not
exempt from meeting their employment tax deposits and related reporting requirements.
As of December 31, 2011, 70 Federal agencies with 126 delinquent tax accounts owed
approximately $14 million in unpaid taxes. In addition, 18 Federal agencies had not
filed, or had been delinquent in filing, 39 employment tax returns. Federal agencies
should be held to the same filing and payment standards as all American taxpayers.

To improve the administration of the Federal Agency Delinquency Program, TIGTA
made several recommendations to the IRS, which include strengthening the procedures
for resolving delinquent tax accounts and assisting Federal agencies with understanding
and meeting their tax responsibilities.

IRS management agreed with the recommendations and stated that it has taken or
plans to take corrective actions.
Reference No. 2012-30-094




                                                  April 1, 2012 – September 30, 2012    17
                                         TIGTA SEMIANNUAL REPORT TO CONGRESS


Actions Are Needed to Ensure Audit Results Post Timely and Accurately to
Taxpayer Accounts

TIGTA identified several control issues that adversely affected the ability of the IRS’s
Small Business/Self-Employed Division to timely and accurately post audit results to
taxpayer accounts and protect the statutory period for assessing tax deficiencies.
These issues increased the risk of: 1) allowing noncompliant taxpayers to avoid paying
taxes they otherwise owe; 2) creating unnecessary burden on taxpayers by posting
inaccurate tax assessments; and 3) compromising the integrity of the tax system by
issuing erroneous tax refunds.

As a result, TIGTA made several recommendations, including that the IRS:

     •   Establish procedures to ensure that all audits entering the Centralized Case
         Processing operation with short statute expiration dates and large dollar
         deficiencies are timely and accurately assigned and processed in accordance
         with applicable procedures;
     •   Establish procedures to ensure accurate information is posted to taxpayer
         accounts; and
     •   Monitor employees’ use of sensitive command code combinations.

IRS management agreed with most of the recommendations and stated that it plans to
take or has taken corrective actions.
Reference No. 2012-30-097

Modernization
The Business Systems Modernization Program (Modernization Program) is a complex
effort to modernize IRS technology and related business processes. It involves
integrating thousands of hardware and software components while replacing outdated
technology and maintaining the current tax system. Factors that characterize the IRS’s
complex information technology environment include: a wide variety of inputs from
taxpayers; seasonal processing with extreme variations in processing loads; transaction
rates on the order of billions per year; and data storage measured in trillions of bytes.

The IRS’s modernization efforts continue to focus on core tax administration systems
designed to provide more sophisticated tools to taxpayers and to IRS employees. The
Modernization Program provides new information technology capabilities and related
benefits, and has continued to help improve IRS operations and business practices.
Management of project costs and schedules has improved during the past year, but
more attention must be given to systems development disciplines.




18         April 1, 2012 – September 30, 2012
         TIGTA SEMIANNUAL REPORT TO CONGRESS



Customer Account Data Engine 2 Performance and Capacity Is Sufficient, But
Actions Are Needed to Improve Testing

Built on the foundations of the current Customer Account Data Engine (CADE), CADE 2
will allow the IRS to convert the existing weekly individual taxpayer account processing
system to daily batch processing. Such an enhancement should improve the service
provided to taxpayers by allowing the IRS to more effectively and efficiently update
taxpayer accounts, support account settlement and maintenance, and process refunds
on a daily basis. The ability of the IRS to accurately execute, monitor, and assess
performance and capacity testing directly affects whether, after implementation, CADE
2 will be capable of processing the necessary quantity and types of information within
required time frames. The untimely completion of information processing could result in
delayed taxpayer refunds and reduced customer service.

The IRS has successfully established a testing environment for CADE 2 that is
representative of the production environment, thereby allowing the IRS to obtain
meaningful data from its pre-production tests. However, the IRS did not follow
procedures to ensure that performance requirements were completely tested during the
Final Integration Test Phase I. As a result, the IRS may not have acquired all the
necessary information to make a fully informed decision on the ability of the CADE 2
system to effectively process transactions under expected normal and peak workload
conditions, within acceptable response time thresholds.

TIGTA also found that the IRS needs to develop procedures for access to, and retention
and maintenance of, testing artifacts for Final Integration Testing.

TIGTA recommended that the IRS:

   •   Ensure that internal controls for testing performance and capacity requirements
       are formally and effectively implemented to ensure the traceability of these
       requirements through the performance testing process; and
   •   Develop procedures related to the access to, and retention and maintenance of,
       testing artifacts for performance testing.

IRS management agreed with the recommendations and stated that it plans to take
corrective actions.
Reference No. 2012-20-051

The IRS Is Making Progress Toward Implementing Daily Processing of Individual
Tax Returns

At the end of CY 2011, the IRS had identified more than 122 million taxpayer accounts
for daily processing and more than 148 million taxpayer accounts for weekly processing.
Through April 30, 2012, the IRS had successfully processed 71 million individual tax
returns through daily tax return processing.




                                                 April 1, 2012 – September 30, 2012   19
                                         TIGTA SEMIANNUAL REPORT TO CONGRESS


TIGTA found that the IRS was able to accurately identify tax accounts for daily
processing, and that its planning efforts reduced the risk associated with the daily
processing of individual tax returns. In addition, the IRS effectively analyzed tax
account transactions and other conditions that affect tax return processing, and
identified those that would require additional time to process correctly. These
transactions are referred to as disqualifiers. Tax accounts that contain one or more
disqualifiers will continue to be processed weekly. TIGTA’s review of 89 of 108
disqualifiers on more than 79 million taxpayer accounts processed between January 17
and February 29, 2012, found that the IRS computer system was correctly programmed.

The IRS conducted reviews of tax accounts and tax return transactions during the
2012 Filing Season to monitor the accuracy of CADE 2 processing. However, it verified
only a fraction of the approximately 119 million individual tax returns processed through
April 30, 2012. In addition, the IRS did not track which disqualifiers it was able to verify
as part of its review. Unless the IRS verifies at least a limited number of tax accounts
that contain each of the identified disqualifiers, there can be no assurance that
individual tax account transactions are properly being posted to the Master File.

TIGTA made no recommendations as a result of the work performed during the review.
However, IRS management reviewed the report prior to its issuance and agreed with
the facts and conclusions presented.
Reference No. 2012-40-085

Despite Steps Taken to Increase Electronic Returns, Unresolved Modernized
e-File System Risks Will Delay the Retirement of the Legacy e-File System and
Implementation of Business Forms

The Modernized e-File (MeF) system, which will replace the existing electronic filing
system (the Legacy e-File system), is a critical component of the IRS’s initiative to meet
the needs of taxpayers, reduce taxpayer burden, and broaden the use of electronic
interactions. Unresolved performance issues with MeF Release 7.0 and planned
Calendar Year 2012 infrastructure changes have impaired the IRS’s efforts to retire the
existing Legacy e-File system and have delayed plans for receiving employment tax
forms through MeF Release 8.0. Deferring the implementation of employment tax forms
and schedules will further delay the ability of the IRS to detect employment tax return
errors on a real-time basis.

As a result, TIGTA recommended that the IRS:

     •   Defer retirement of the Legacy e-File system until the increased risk associated
         with retiring it can be addressed;
     •   Update the Internal Revenue Manual (IRM) to include improved performance
         testing processes, ensure system performance test teams obtain approved
         waivers or deferrals when performance tests are not executed, and ensure
         performance test teams submit End of Test Status Reports for senior
         management review; and



20         April 1, 2012 – September 30, 2012
           TIGTA SEMIANNUAL REPORT TO CONGRESS



     •   Complete a retirement plan for the Legacy e-File system as well as communicate
         retirement milestones and timelines to key stakeholders.

IRS management partially agreed with these recommendations and stated that it is
taking steps to build a contingency plan for the MeF system and updating the IRM.
However, IRS management did not state that it would develop a Legacy e-File system
retirement plan, along with associated implementation dates and monitoring plans.
Reference No. 2012-20-121

Implementing Major Tax Law Changes
Each filing season tests the IRS’s ability to implement tax law changes made by
Congress, because the IRS must often act quickly to assess the changes and
determine the necessary actions to:

     •   Ensure that all legislated requirements are satisfied;
     •   Create new or revise existing tax forms, instructions, and publications;
     •   Revise internal operating procedures; and
     •   Reprogram major computer systems used for processing returns.

Processes to Address Erroneous Adoption Credits Result in Increased Taxpayer
Burden and Credits Allowed to Nonqualifying Individuals

One of the challenges that the IRS addresses each year in processing tax returns is the
implementation of new tax law changes. For instance, the Patient Protection and
Affordable Care Act 11 contained a provision making the Adoption Credit refundable for
Tax Years (TY) 2010 and 2011. As of December 23, 2011, the IRS had received
101,627 Adoption Credit claims totaling more than $1.2 billion for TY 2010. Although
the Adoption Credit provides benefits to many qualified individuals, the unintended
consequence of refundable credits is that they are often the target of unscrupulous
individuals who file erroneous claims.

The law did not provide, and the IRS did not seek, math-error authority for Adoption
Credit claims that were not supported by sufficient documentation. As a result, 43,295
(42.6 percent) of the 101,627 total Adoption Credit claims were referred to the IRS’s
Examination function because of incomplete or missing documentation. Math-error
authority would have allowed the IRS to reallocate approximately $1.9 million to other
high-priority programs within the Examination function.

TIGTA’s review also found that, as of August 6, 2011, the IRS had processed 94,092
tax returns with an Adoption Credit claim and found that 4,258 (4.5 percent) taxpayers
received almost $49.3 million in Adoption Credits without sufficient supporting

11
  Pub. L. No. 111-148, 124 Stat. 119 (2010) (codified as amended in scattered sections of 18 U.S.C., 20
U.S.C., 21 U.S.C., 25 U.S.C., 26 U.S.C., 28 U.S.C., 29 U.S.C., 30 U.S.C., 31 U.S.C., 35 U.S.C., and 42
U.S.C.).


                                                          April 1, 2012 – September 30, 2012         21
                                         TIGTA SEMIANNUAL REPORT TO CONGRESS


documentation. TIGTA estimated that 953 tax returns filed by these 4,258 taxpayers,
claiming Adoption Credits totaling more than $11 million, were erroneous.

In addition, TIGTA found that 333 taxpayers with valid Adoption Credit claims totaling
$2 million had their credits incorrectly suspended, and their tax returns were referred to
the Examination function. However, these taxpayers had previously provided
documentation when they applied for a Taxpayer Identification Number for a pending
United States adoption.

TIGTA recommended that the IRS:

     •   Develop a process to prevent taxpayers from receiving the Adoption Credit when
         a foreign adoption is in process and to ensure that taxpayers identified as
         erroneously claiming the Adoption Credit are reviewed in the Examination
         function; and
     •   Ensure that computer programming accurately excludes tax returns that list
         Adoption Taxpayer Identification Numbers on Form 8839, Qualified Adoption
         Expenses, and indicate that the adoption is in process, so these taxpayers do not
         have their refunds erroneously suspended and delayed.

IRS management agreed with the recommendations and stated that it had taken
corrective actions.
Reference No. 2012-40-065

Affordable Care Act: Planning Efforts for the Tax Provisions of the Patient
Protection and Affordable Care Act Appear Adequate; However, the Resource
Estimation Process Needs Improvement

The Patient Protection and Affordable Care Act contains many provisions that are to be
implemented over the course of several years, including some that required
implementation during the year the legislation was signed into law. TIGTA found that
the IRS had developed appropriate plans to implement tax-related provisions of the Act
using well-established methods for implementing tax legislation. The IRS’s plans
addressed tax forms, instructions, and most of the affected publications, as well as
employee training, outreach and guidance to taxpayers and preparers, computer
programming, and data needs.

The IRS projected its Fiscal Years (FY) 2012 and 2013 Patient Protection and
Affordable Act staffing needs to be 1,278 Full-Time Equivalents and 859 Full-Time
Equivalents, respectively. The IRS has not projected staffing needs beyond FY 2013.
The lack of documentation to support the projected staffing requirements necessary to
implement the Act precluded TIGTA from providing an opinion on the adequacy of
staffing requests. The IRS did not analyze each provision to determine the amount of
staffing necessary to implement the provision.




22         April 1, 2012 – September 30, 2012
         TIGTA SEMIANNUAL REPORT TO CONGRESS



Therefore, TIGTA recommended that the IRS perform an analysis to evaluate the
resources necessary to efficiently implement the provisions of the Act and to ensure that
this process is documented.

IRS management agreed with the recommendation and stated that it plans to take
corrective action.
Reference No. 2012-43-064

Affordable Care Act: While Much Has Been Accomplished, the Extent of
Additional Controls Needed to Implement Tax-Exempt Hospital Provisions Is
Uncertain

The Patient Protection and Affordable Care Act contains provisions that impact the IRS
and tax-exempt hospital organizations. The IRS has made progress establishing
controls to assess tax-exempt hospital organization compliance. However, additional
work will be required once legal guidance is published. Until guidance is published, the
public cannot be assured that the IRS has implemented all controls necessary to ensure
compliance with the provisions of the Act that are designed to protect those served by
tax-exempt hospitals.

In addition, the Department of the Treasury will be required in the near future to send its
first annual report to Congress regarding tax-exempt hospitals. The IRS is responsible
for working with the Department of Health and Human Services to gather the necessary
data for this report. While communication has been established, the format and timing
of receipt of data have not been formalized.

TIGTA recommended that the IRS work with the Department of the Treasury to
establish a Memorandum of Understanding (MOU) with the Department of Health and
Human Services. The MOU should take into consideration when information for the
annual report to Congress should be received by the IRS and the proper format of the
data to ensure that it will be timely and usable for the report to Congress.

IRS management agreed with the recommendation and stated that it plans to take
corrective action.
Reference No. 2012-13-070

Fraudulent Claims and Improper Payments
Improper payments include: any payment to an ineligible recipient or for an ineligible
service; any duplicate payment; any payment for services not received; and any
payment that does not account for credit for applicable discounts. Improper payments
issued by the IRS generally involve improperly paid refunds, tax return filing fraud, or
improper payments to vendors or contractors.




                                                   April 1, 2012 – September 30, 2012      23
                                         TIGTA SEMIANNUAL REPORT TO CONGRESS


Substantial Changes Are Needed to the Individual Taxpayer Identification Number
Program to Detect Fraudulent Applications

In CY 1996, the IRS created the Individual Taxpayer Identification Number (ITIN) so that
individuals who are not eligible to obtain Social Security Numbers could obtain an
identification number for tax purposes. However, IRS management has not established
adequate internal controls to detect and prevent the assignment of ITINs to individuals
submitting questionable applications. The lack of adequate controls over the
processing of ITIN applications can result in the improper assignment of ITINs to
individuals who have not substantiated their identity or foreign status, which can result
in fraudulent tax returns. Controls are important because of the volume of returns
processed. In Processing Year 2011, the IRS processed more than 2.9 million ITIN tax
returns resulting in tax refunds of $6.8 billion.

As a result, TIGTA recommended that the IRS:

     •   Develop detailed procedures and deliver adequate training to identify
         questionable documents;
     •   Expand the quality review process to include emphasis on whether employees
         are accurately identifying fraudulent documents;
     •   Revise the criteria for identifying questionable applications;
     •   Establish a process to evaluate questionable applications;
     •   Develop a business process to include analyzing the current system to identify
         trends and schemes;
     •   Require only original documents or documents certified by the issuing agency in
         support of an ITIN application; and
     •   Discontinue the Certifying Acceptance Agent designation.

IRS management agreed with most of these recommendations and stated that it plans
to take corrective actions.
Reference No. 2012-42-081

An Independent Risk Assessment of Facility Physical Security Was Not
Performed in Compliance With Contract Requirements

The IRS has an obligation to protect the Federal Government’s tax administration system,
which includes approximately 100,000 employees stationed at more than 700 facilities, as
well as taxpayer information and the taxpayers who visit the IRS throughout the United
States. TIGTA’s review identified significant deficiencies in the administration of an IRS
physical security risk assessment contract. As a result, the contractor was unable to
conduct an in-depth, independent assessment regarding the security posture of IRS
facilities, as required by the contract. When contracts are not properly administered, the
IRS may not receive the desired contract outcomes and the best return on the taxpayer’s
dollar.




24         April 1, 2012 – September 30, 2012
           TIGTA SEMIANNUAL REPORT TO CONGRESS



Therefore, TIGTA recommended that the IRS:

     •   Reemphasize to IRS management officials, program office employees, and
         Contracting Officer’s Technical Representatives (COTR), 12 that contracting
         officers must be promptly notified of any changes to contract requirements; and
     •   Ensure that COTRs perform their specific responsibilities including: advising the
         contracting officer when changes in the work occur; reviewing contractor
         vouchers and invoices to ensure that they are accurate; determining whether
         services are delivered in conformance with the requirements of the contract; and
         following the contract’s quality assurance plan.

IRS management agreed with these recommendations and stated that it plans to take
corrective actions.
Reference No. 2012-10-075

Expansion of Controls Over Refundable Credits Could Help Reduce the Billions
of Dollars of Improperly Paid Claims

Refundable credits, unlike other tax credits, not only have the potential to reduce a
taxpayer’s tax liability to zero, but also allow the taxpayer to receive a cash payment of
any remaining credit amount. During Tax Years 2006 through 2009, taxpayers claimed
almost $470 billion in refundable credits. Due to post-examinations, taxpayers were
required to repay more than an estimated $2.3 billion in erroneous credits. TIGTA
found that taxpayers repeatedly claimed erroneous Additional Child Tax Credits after
the credits had been disallowed the previous year.

TIGTA recommended that the IRS implement additional controls to identify and stop
erroneous claims for refundable credits before refunds are issued, including:

     •   Implementing an account indicator to identify taxpayers who claim erroneous
         refundable credits. Taxpayers with such an indicator should be required to
         provide documentation before their claims for refundable credits are processed
         and should be considered for pre-refund examinations of claims. Such an
         indicator should be applied for a specified time period;
     •   Freezing and verifying claims for the Additional Child Tax Credit (ACTC) on all
         returns for which the Earned Income Tax Credit (EITC) is frozen; and
     •   Working with the Department of the Treasury’s Office of Tax Policy to seek
         legislation to expand the EITC due diligence requirements and penalties to
         include the ACTC.

IRS management agreed with these recommendations and stated that it plans to take
corrective actions.
Reference No. 2012-40-105

12
  The designation for Contracting Officer’s Technical Representative has been changed to Contracting
Officer’s Representative.


                                                         April 1, 2012 – September 30, 2012            25
                                       TIGTA SEMIANNUAL REPORT TO CONGRESS



Providing Quality Taxpayer Service Operations
The Department of the Treasury and the IRS recognize that the delivery of effective
taxpayer service has a significant impact on voluntary tax compliance. By answering
taxpayers’ questions to assist them to correctly prepare their tax returns, the IRS can
reduce the need to send notices and correspondence when taxpayers make errors.
Taxpayer service also reduces unintentional noncompliance and shrinks the need for
future collection activity. The IRS continues to focus on the importance of improving
service by emphasizing it as a main goal in its strategic plan, and by seeking innovative
ways to simplify or eliminate processes that unnecessarily burden taxpayers or
Government resources.

Better Information Is Needed to Assess Ongoing Efforts to Expand Self-
Assistance and Virtual Services to Taxpayers

Taxpayers have different preferences and behaviors that affect their service needs.
The IRS’s challenge is to meet taxpayer needs and determine how to provide the best
services with its limited resources. The IRS is implementing or testing four strategic
initiatives to examine the feasibility of Facilitated Self-Assistance and video
conferencing technology as alternative service delivery options to replace traditional
face-to-face contacts at Taxpayer Assistance Centers and Volunteer Program sites.

A limited number of taxpayers have used these alternative services: 33,636 have used
Facilitated Self-Assistance in the Taxpayer Assistance Centers and 5,938 at the
Volunteer Program sites, while 8,514 have used Virtual Services at the Taxpayer
Assistance Centers and 2,101 at the Volunteer Program sites. Although these service
options appear to be viable alternatives to serve more taxpayers and preserve limited
resources, the IRS does not yet have sufficient data to determine if Facilitated Self-
Assistance and Virtual Services are an effective and efficient means of providing
customer service. Moreover, these services are not consistently offered to all taxpayers
who may need or desire them.

The IRS is collecting data to determine the number of taxpayers who use Facilitated
Self-Assistance and Virtual Services located in Taxpayer Assistance Centers and
Volunteer Program sites. In some instances, it is gathering customer satisfaction
ratings. Nevertheless, it has not established goals and measures for all four initiatives
to gauge their success, nor has it accumulated data to determine if any or all are cost
effective.

In addition, TIGTA auditors had difficulty contacting or locating Volunteer Program sites
that offered Facilitated Self-Assistance or Virtual Services, and the IRS does not publish
on its website the Taxpayer Assistance Centers offering Facilitated Self-Assistance.




26       April 1, 2012 – September 30, 2012
         TIGTA SEMIANNUAL REPORT TO CONGRESS



TIGTA recommended that the IRS:

   •   Develop sufficient measures (including a customer satisfaction survey) and goals
       for the Facilitated Self-Assistance initiative in the Taxpayer Assistance Centers
       that will allow the IRS to determine if the initiative is cost effective and is meeting
       expectations;
   •   Establish a baseline and develop goals and measures for the Virtual Services
       initiative in the Volunteer Program sites, in order to ensure that it is meeting
       expectations;
   •   Emphasize to employees and volunteers the need to consistently offer taxpayers
       the option of using Facilitated Self-Assistance when available at their Taxpayer
       Assistance Center or Volunteer Program site; and
   •   Accurately publicize these alternative service options on its website.

IRS management agreed with three of the four recommendations and stated that it
plans to take corrective actions. IRS management partially agreed with one
recommendation, but stated that usage is a better measure than a customer satisfaction
survey to evaluate the success of the Facilitated Self-Assistance initiative.
Reference No. 2012-40-073

Achieving Program Efficiencies and Cost Savings
Given the current economic environment and the increased focus by the Administration,
Congress, and the American people on Government accountability and efficient use of
resources, the American people must be able to trust that their Government is taking
action to stop wasteful practices and to ensure that every tax dollar is spent wisely.
While the IRS has made progress in using its data to improve program effectiveness
and reduce costs, this area continues to be a major challenge.

The Full Costs of Work Performed on Reimbursable Agreements Are Not Always
Charged, Resulting in reduced Funds Available for Tax Administration

During FY 2011, the IRS entered into 89 separate agreements to perform services on a
reimbursable basis. These services were conducted primarily on behalf of other
Federal agencies, with the IRS collecting approximately $90 million related to these
agreements. However, TIGTA’s review identified significant costs incurred by the IRS
that were not reimbursed. Specifically, TIGTA’s review of six randomly selected
agreements identified more than $28 million in costs incurred by the IRS that were not
reimbursed. When the IRS is reimbursed in an amount less than the cost of performing
reimbursable work, it must fund this work using its own operating budget, thereby
reducing funds available for tax administration.

As a result, TIGTA recommended that the IRS:

   •   Ensure that all active reimbursable agreements are based on the full costs
       estimated for the services provided;


                                                    April 1, 2012 – September 30, 2012      27
                                         TIGTA SEMIANNUAL REPORT TO CONGRESS



     •   Reconcile the identified difference between the amount of reimbursement
         receipts recorded in the IRS’s Integrated Financial System and the amount of
         the expected reimbursement for one of the agreements that TIGTA reviewed,
         and pursue the collection of any unreimbursed funds, as applicable; and
     •   Ensure that guidelines are updated to require that overhead be included in
         reimbursable work cost estimates, and provide refresher training on a periodic
         basis to responsible business unit personnel.

IRS management agreed with these recommendations and stated that it plans to take
corrective actions.
Reference No. 2012-10-076

Significant Additional Real Estate Cost Savings Can Be Achieved by
Implementing a Telework Workstation Sharing Strategy

On June 10, 2010, President Obama directed Government agencies to eliminate excess
properties and achieve $3 billion in savings by the end of FY 2012. TIGTA’s review
found that the IRS has achieved some cost savings in support of the President’s goal.
However, these efforts are impeded by the lack of an established policy and effective
strategy on implementing workstation sharing by IRS employees who telework. A policy
requiring employees who telework to share workstations would allow the IRS to further
reduce its long-term office space needs and achieve additional cost savings.
Specifically, if employees who routinely telework on a full or part-time basis shared their
workstations, 10,244 workstations could potentially be eliminated. This could allow the
IRS to reduce its office space needs by almost one million square feet, resulting in
potential rental savings of approximately $111.4 million over five years.

TIGTA recommended that the IRS:

     •   Finalize an agreement with the National Treasury Employees Union (NTEU) that
         establishes a workstation sharing policy that can be implemented IRS-wide;
     •   Pursue a workstation sharing policy with other IRS business units similar to the
         agreement reached with its Information Technology organization until an
         agreement between the IRS and the NTEU is finalized;
     •   Develop an overall strategy that links workstation sharing with the IRS’s planning
         for future space needs; and
     •   Reevaluate the potential impact of workstation sharing on all current real estate
         planning projects.

IRS management agreed with these recommendations and stated that it has taken or
plans to take corrective actions.
Reference No. 2012-10-100




28         April 1, 2012 – September 30, 2012
           TIGTA SEMIANNUAL REPORT TO CONGRESS




     Protect the Integrity of Tax Administration


T
          IGTA is statutorily charged with protecting the integrity of Federal tax
          administration. TIGTA accomplishes its mission, in part, through the
          investigative case work conducted by the Office of Investigations (OI). Through
          its investigative programs, OI protects the integrity of the IRS by investigating
          allegations of IRS employee misconduct, external threats to employees and
facilities, and attempts to impede or otherwise interfere with the IRS’s ability to collect
taxes.

Employee misconduct undermines the IRS’s ability to deliver taxpayer service, enforce
tax laws effectively, and collect taxes owed. Misconduct by IRS employees manifests
itself in a variety of ways, including extortion, theft, taxpayer abuses, false statements,
financial fraud, and identity theft.

TIGTA places the highest priority on its statutory responsibility to protect approximately
100,000 IRS employees located in over 700 facilities nationwide. In the last three
years, threats directed at the IRS have become a larger percentage of OI’s work.
Physical violence, harassment, and intimidation of IRS employees continue to pose
significant challenges to the implementation of a fair and effective system of tax
administration. OI is committed to ensuring the safety of IRS employees and the
security of IRS facilities.

Over the past decade, identity theft has become the top complaint of consumers. 13 Not
only does identity theft have a negative impact on the economy, but the damage it
causes to its victims can be personally, professionally, and financially devastating. OI is
committed to investigating identity theft that involves any type of IRS employee
involvement, misuse of client information by preparers, or the impersonation of the IRS
through phishing 14 and other means.

Safeguarding the IRS
IRS contact with taxpayers can be stressful, and taxpayers may become confrontational
or even violent. Taxpayers have made threats against IRS employees and some have
physically assaulted employees. OI continues to place a priority on ensuring the safety
and security of IRS employees and facilities.

The following case is representative of OI’s efforts to safeguard IRS employees during
this six-month reporting period:



13
   Federal Trade Commission, Consumer Sentinel Network Data Book for January – December 2011,
(February 2012).
14
   Phishing is a fraudulent attempt, usually made through e-mail, to steal an individual’s personal
information.


                                                         April 1, 2012 – September 30, 2012           29
                                             TIGTA SEMIANNUAL REPORT TO CONGRESS


John Daly Sentenced for Threatening and Intimidating an IRS Employee

On September 18, 2012, in the District of Massachusetts, John Daly was sentenced to
two years of probation and ordered to pay a $250 assessment for threatening and
intimidating a United States official acting in official capacity. 15 According to court
documents, Daly threatened to assault an IRS employee with the intent to impede,
intimidate, and interfere with the employee while the employee was engaged in the
performance of official duties and with the intent to retaliate against the employee for
performing official duties. 16 Daly previously pled guilty to two counts of threatening a
United States official and two counts of corrupt endeavor to impede the administration
of the Internal Revenue Code. 17

Investigating Identity Theft
Identity theft occurs when someone uses the Personally Identifiable Information (PII),
e.g., name, Social Security Number, or credit card
number, of another, without permission, to commit fraud     “Impersonation of the IRS as part of an
or other crimes. Unfortunately, identity theft can be       identity theft scheme has many forms.
committed or facilitated by employees who have access       Often, the IRS is impersonated by
to IRS information or others who may have knowledge         individuals who seek to trick
of internal IRS operations. OI recognized that a            unsuspecting taxpayers into revealing
                                                            their personal information. The details
proactive approach is needed to effectively reduce this     of each scheme tend to vary, but the
risk to the American taxpayer and to Federal tax            common thread is the use of the IRS
administration.                                             name to lure recipients into accessing
                                                                  links or providing sensitive
OI’s jurisdiction to investigate identity theft involves:         information.”

                                                                                            J. Russell George
     •   IRS employees who are involved in committing                Inspector General for Tax Administration
         identity theft;                                          “Problems at the Internal Revenue Service:
                                                                         Closing the Tax Gap and Preventing
     •   Tax preparers who misuse and disclose client              Identity Theft” testimony on April 19, 2012
         information to others in furtherance of identity
         theft; and
     •   Impersonation of the IRS in furtherance of an
         identity-theft scheme.

OI is aggressively combating identity theft by dedicating investigative resources to:
actively seek out and participate in Federal, State, and local identity theft task forces;
initiate proactive projects to identify IRS employees who may be using taxpayer
information to engage in identity theft; and respond to any allegations that IRS
employees may be involved in identity-theft activity.

OI employs forensic data analysts, criminal investigators, and computer programmers
who detect fraud involving the misuse of IRS computer systems and data in IRS
15
   D. Mass. Judgment filed Sept. 20, 2012.
16
   D. Mass. Indict. filed Feb. 16, 2011.
17
   D. Mass. Plea Agr. filed June 6, 2012.



30          April 1, 2012 – September 30, 2012
           TIGTA SEMIANNUAL REPORT TO CONGRESS



operations. This specialized group of analysts, investigators, and programmers
attempts to uncover IRS employee-related identity theft schemes through the use of
technology and other forensic tools.

The following cases are examples of OI’s efforts to combat identity theft during this six-
month reporting period:

Former IRS Employee Arrested for Aggravated Identity Theft, Mail Fraud, and
Unauthorized Inspection and Disclosure of Tax Returns and Return Information

On July 5, 2012, in Lake Mary, Florida, former IRS employee Domeen Flowers was
arrested by TIGTA, 18 after being charged by a Federal grand jury on June 26, 2012,
with aggravated identity theft, mail fraud, unauthorized inspection of tax returns and
return information, and unauthorized disclosure of tax returns and return information. 19

Flowers was hired by the IRS as a mailroom clerk in July 2007. From June 2009 to July
2009, Flowers accessed the IRS Integrated Data Retrieval System (IDRS), an electronic
database, to obtain her landlord’s tax information. Flowers used her landlord’s PII,
along with her own rental address, to obtain a credit card in her landlord’s name without
her landlord’s permission. 20

Flowers caused a series of purchases aggregating approximately $220 to be charged to
the credit card. After Flowers attempted to use the credit card to pay an outstanding
debt to the Philadelphia Gas Works, the bank mailed a letter addressed to Flowers’
landlord at Flowers’ rental address advising that it had placed a hold on the account
until the cardholder provided various documents to verify the information contained in
the cardholder’s personal credit file. 21

Flowers attempted to obtain additional identifying information from her landlord by
preparing a bogus letter on IRS letterhead to her landlord that falsely informed her
landlord that the IRS would audit her tax returns unless she faxed to the IRS copies of a
valid driver's license or State issued I.D. card and a valid Social Security card. In the
letter, Flowers instructed her landlord to fax copies of the documents to a fax machine
located in her work area within the IRS workspace. 22

Jared Brewton Pleads Guilty to Impersonating an IRS Employee and Identity Theft
in Fraudulent Tax Refund Scheme

On July 11, 2012, in the Southern District of New York, Jared Brewton pled guilty to
false impersonation of an officer and employee of the United States, identity theft,
subscribing to false and fraudulent U.S. individual income tax returns, and false,

18
   E.D. Pa. Arrest Warrant executed July 5, 2012.
19
   E.D. Pa. Crim. Indict. filed June 26, 2012.
20
   Id.
21
   Id.
22
   Id.


                                                    April 1, 2012 – September 30, 2012   31
                                             TIGTA SEMIANNUAL REPORT TO CONGRESS


fictitious or fraudulent claims. Brewton was indicted by a grand jury on January 25,
2012. 23

According to court documents, from 2006 through 2010, Brewton obtained false and
fraudulent tax refunds from the IRS by posing as an IRS "Audit Group Representative"
named "Susan Waters." While doing so, Brewton sent letters to various employers
demanding that they send him the names, contact information, dates of birth, and Social
Security Numbers of employees. On at least one occasion, Brewton informed an
employer that "identity theft is an [sic] an all-time high ... [and that] [o]ur offices are
making every effort to ensure that no possible identity theft can occur by [sending the
personal identifying information]." 24

Brewton then prepared and sent false and fraudulent Federal tax returns and
accompanying forms that contained Form W-2 information, such as income and
withholding, that was falsely and fraudulently inflated, in the names of various other
taxpayers without their knowledge or consent. Brewton received fraudulently procured
tax refunds, including those in the names of the other taxpayers, and used the refunds
to purchase various personal items. 25 The investigation was worked jointly with IRS-
Criminal Investigation.

Protecting Sensitive Taxpayer Information
Electronic tax records of all taxpayers are stored in computer systems maintained by
the IRS. Misuse of this information can result in identity theft or other fraud. OI ensures
the privacy and security of taxpayer information by detecting and investigating IRS
employees who make or attempt to make unauthorized accesses to taxpayer
information, as well as individuals who attempt to gain unauthorized access to IRS
computer systems.

To ensure that sensitive taxpayer information is protected, OI evaluates IRS computer
applications that process or contain taxpayer information and conducts proactive
initiatives to detect unauthorized access to taxpayer data using a variety of tools. These
tools include pairing computer matching programs with fraud detection scenarios to
uncover unauthorized accesses to electronic taxpayer records contained in IRS
computer systems. During this reporting period, OI initiated 207 unauthorized access
investigations.

OI employs experienced computer specialists and criminal investigators who are part of
a computer crimes unit that detects and investigates threats to IRS computer systems
and networks from individuals attempting to gain unauthorized access. The computer
crimes unit detects intrusions to IRS information systems, networks, hardware,
telecommunications, Internet sites, and vendor-supplied software products.


23
   S.D.N.Y. Minute Entry filed July 11, 2012.
24
   S.D.N.Y. Crim. Indict. filed Jan. 25, 2012.
25
   Id.



32         April 1, 2012 – September 30, 2012
              TIGTA SEMIANNUAL REPORT TO CONGRESS



Combating Phishing Schemes
Criminals involved in identity theft schemes use creative ways to obtain victims’ PII to
commit fraud. Phishing, which usually involves mass solicitation of potential victims
through e-mail or other forms of electronic communication, is a widespread method
used by criminals to steal another’s identity. Often scammers send e-mails claiming to
be from the IRS. These phishing e-mails contain a “hook” that induces the victim to
take some overt action. For example, an e-mail may contain an attachment or an
Internet link which directs the victim to a website that appears to belong to the
IRS. These hooks indicate to the victims that they are due a tax refund, but before they
can collect they must provide additional information, such as their date of birth, SSN,
bank information, or a credit card number. In some cases the victim is prompted to
open an attachment in the e-mail which may contain malicious code, or “malware,”
designed to compromise the victim’s computer.

Once installed, malware can steal information from victim-computers or serve as nodes
in a network of compromised computers, known as “botnets,” which are often used to
perpetrate other illicit activity. While phishing schemes may vary in their technical
complexity, most share a common trait: they involve computers located outside the U.S.
Despite the significant investigative challenges this poses, OI has been successful in
working with law enforcement personnel in foreign countries to identify the perpetrators
and obtain prosecutions.

Each year the number of IRS phishing websites that go online increases. In FY 2012,
18,810 phishing websites were identified by the IRS Office of Online Fraud Detection
and Prevention (OFDP), 4,556 more than previous fiscal year. Of those, approximately
3,582 websites were identified during this six-month reporting period. 26 Internet scams
using IRS seals and symbols to solicit victims for PII, financial information, or money
continued to be an investigative priority for OI during this six-month reporting period. OI
is partnered with the IRS Computer Security Incident Response Center (CSIRC), the
OFDP, and the Office of Safeguards, to aggressively combat these schemes.




26
     IRS Office of Online Fraud Detection and Prevention.


                                                            April 1, 2012 – September 30, 2012   33
                                                   TIGTA SEMIANNUAL REPORT TO CONGRESS




                                                  Phishing Sites
                              20000                                                    18810
                              18000
                              16000
                                                                               14254
                              14000
            Number of Sites


                              12000
                              10000
                               8000
                               6000                                     4967
                               4000                            3030
                                                                                4238
                               2000                     889
                                       0     4    245
                                  0
                                      2004 2005 2006 2007 2008 2009 2010 2011 2012
                                                              Fiscal Year

                                      Number of Phishing Sites Identified Since 2004

The following case is representative of OI’s effort to combat IRS phishing schemes
during this six-month reporting period:

Christian Amaukwu Sentenced for Internet Fraud Scheme

On July 31, 2012, in Brooklyn, New York, Christian Amaukwu was sentenced to a total
of 30 months of imprisonment and five years of supervised release for Aggravated
Identity Theft and Conspiracy to Commit Wire Fraud. In addition, he was ordered to pay
$1,741,822 restitution to victims and a $200 assessment. 27

According to court documents, Amaukwu and co-conspirators operated a scheme to
defraud numerous individuals through Internet solicitations, stealing more than $1
million and the identities of those individuals. 28 Amaukwu and his co-conspirators
obtained massive e-mail distribution lists containing thousands of e-mail addresses, and
sent unsolicited e-mails falsely informing victims that they had won a lottery or had
inherited money from a distant relative. Follow-up e-mails instructed the victims to
provide personal and bank account information to receive their lottery winnings or
inheritance. 29

Subsequent e-mails to victims falsely indicated that a Government or a quasi-
governmental agency, such as the IRS or the United Nations, 30 would not pay the
money due to them because an advance payment of taxes and other fees was required.


27
   E.D.N.Y. Judgment filed Aug. 9, 2012.
28
   E.D.N.Y. Response to Defendant’s Sentencing Letter filed Dec. 19, 2011.
29
   E.D.N.Y. Superseding Info. filed May 10, 2011.
30
   E.D.N.Y. Response to Defendant’s Sentencing Letter filed Dec. 19, 2011.



34        April 1, 2012 – September 30, 2012
              TIGTA SEMIANNUAL REPORT TO CONGRESS



The e-mails solicited the victims to wire the money necessary to pay the taxes and other
fees to designated bank accounts controlled by Amaukwu and his co-conspirators. 31

If the victims were unable to pay the taxes and fees, Amaukwu and his co-conspirators
offered to loan them the money. Victims were convinced to open online bank accounts
and provide the necessary login information. Using this information, Amaukwu and his
co-conspirators stole money from various bank accounts, transferred that stolen money
to the victims' accounts, and instructed the victims to wire the money to foreign bank
accounts controlled by Amaukwu and his co-conspirators as payment for taxes and
other fees on their purported lottery winnings or inheritance. The victims never received
any lottery winnings, inheritance, or other money in connection with the scheme. 32

Office of Investigations Performance Model
                                                       OI uses a performance model for
                                                       its law-enforcement operations
                                                       consistent with its mission to
                                                       protect Federal tax administration.
                                                       These performance measures
                                                       guide the activities of OI personnel
                                                       and help demonstrate the value of
                                                       its accomplishments to external
                                                       stakeholders. OI’s investigations
                                                       are based on a performance
                                                       model that focuses on three
                                                       primary areas of investigation: 1)
                                                       employee integrity; 2) employee
                                                       and infrastructure security; and 3)
external attempts to corrupt tax administration. The performance model is a valuable
tool that allows OI to identify how resources are allocated and ensures that OI focuses
its investigative efforts on its core mission. To gauge the value of its law enforcement
activities, OI uses a formula to measure positive investigative results from these
activities. Rather than simply tracking the number of investigations, OI’s performance
model measures the ratio of those investigations that have the greatest impact on IRS
operations or the protection of Federal tax administration to total investigations
conducted.

Through the use of this performance model, OI management can set and adjust
performance expectations as the investigative environment changes, adapting to the
IRS’s continually evolving operations while taking into consideration the operational
conditions unique to each field division. In addition to quantifying productivity, the
model is a reliable tool for determining budget, training, and staffing needs.



31
     E.D.N.Y. Superseding Info. filed May 10, 2011.
32
     Id.


                                                      April 1, 2012 – September 30, 2012   35
                                             TIGTA SEMIANNUAL REPORT TO CONGRESS



Employee Integrity Investigations
Due to trust and integrity implications, employee misconduct undermines the IRS’s
ability to collect taxes and deliver taxpayer services. IRS employee misconduct occurs
in a variety of ways, including fraud, theft, unauthorized access to tax return information,
false statements, extortion, and taxpayer abuses. During this reporting period,
employee misconduct investigations have accounted for 50 percent of OI’s work.

The following case examples are representative of OI’s efforts to ensure employee
integrity during this six-month reporting period:

IRS Employee Sentenced for Mail Fraud Related to a Benefits Scheme

On September 4, 2012, in the Eastern District of California, IRS employee Cheryl
Frazier was sentenced to four months of imprisonment to be followed by three years of
supervised release for mail fraud. Frazier was also ordered to pay $13,285 restitution
and a $200 special assessment. 33

Frazier pled guilty, on June 6, 2012, to two counts of mail fraud related to a scheme to
defraud the State of California of money. As part of her scheme, Frazier filed for and
received unemployment insurance benefits from the California Employment
Development Department (EDD) despite having obtained full-time employment with the
IRS. She listed false information on claim forms and mailed them to the EDD. Frazier
became a full-time IRS employee in about October 2008, but continued filing for and
receiving unemployment insurance benefits through about April 2011. 34

IRS Employee Pleads Guilty to Theft of Taxpayer’s Remittance Check

On April 2, 2012, in North Carolina, IRS employee Stephanie Taylor pled guilty to theft
of Government property. According to court documents, Taylor was a secretary for the
IRS collections group office in Winston-Salem. In this capacity, one of her duties was to
open and distribute the mail, including any remittance checks sent to the IRS office by
taxpayers. On February 23, 2011, a taxpayer reported that a check in the amount of
$1,738 had been mailed to the IRS, yet was never posted to the taxpayer’s account. 35

The investigation revealed that the taxpayer had sent the remittance check to the IRS
on February 9, 2011. The check was stolen and altered to reflect the name of
“Stephanie Taylor” in the “To the order of” section and had been signed by Taylor. A
review of Taylor’s bank account disclosed she had deposited the altered check into her
personal account on February 15, 2011. 36



33
   E.D. Cal. Judgment filed Sept. 6, 2012.
34
   E.D. Cal. Plea Agr. filed June 8, 2012.
35
   M.D.N.C. Plea Agr. filed Apr. 2, 2012.
36
   Id.



36         April 1, 2012 – September 30, 2012
          TIGTA SEMIANNUAL REPORT TO CONGRESS



IRS Employee Sentenced for Unauthorized Inspection of Return Information

On April 24, 2012, in the Western District of Washington, IRS employee Jeanne
Desozier was sentenced to a term of one-year probation and ordered to pay a $25
assessment for inspecting tax return information without authorization. 37 As an
employee of the IRS, Desozier willfully accessed and inspected the tax return
information of three private individuals in violation of Federal law. 38 She used the IRS
database to look up the addresses of two half-brothers and an old friend with whom she
had lost contact. Desozier admitted that she should not have accessed the information.
She pled guilty as charged and lost her job with the IRS, in addition to being sentenced
for her actions. 39

IRS Employee Sentenced for Falsely Claiming a First-Time Homebuyer Credit

On May 7, 2012, in the District of Massachusetts, IRS employee Michael A. Doyle was
sentenced to serve three years of probation, fined $2,000, and ordered to pay $7,500
restitution and a $100 assessment. 40

On March 23, 2011, Doyle was indicted by a Federal grand jury on one count of
violating Title 18, United States Code, Section 2878 – Filing False Fictitious and
Fraudulent Claims. 41 He was arrested on March 25, 2011, 42 and was found guilty by a
jury on February 8, 2012. 43

In 2008, the United States Congress passed the Housing and Economic Recovery Act,
which established a first-time homebuyer tax credit. The Act allowed first-time home
buyers to receive tax credits of up to $7,500 when purchasing their homes, so long as
the home was purchased after April 8, 2008 and before July 1, 2009. 44

Doyle had been employed by the IRS for approximately 20 years and, at the time of the
offense, worked as a supervisor in the Small Business and Self Employed Division at
the Andover Campus location. 45 Between February 12, 2009 and March 2, 2009, Doyle
completed a 2008 U. S. Individual Income Tax Return, Form 1040, in which he falsely
claimed to have purchased a home on April 15, 2008, in order to obtain a $7,500 first-
time homebuyer tax credit. In fact, that home was purchased on August 15, 2007 and
was not eligible for the credit. 46 This investigation was worked jointly with IRS-Criminal
Investigation.


37
   W.D. Wash. Judgment filed Apr. 24, 2012.
38
   W.D. Wash. Info. filed Apr. 11, 2012.
39
   W.D. Wash. Defendant’s Sentencing Memorandum & Recommendation filed Apr. 20, 2012.
40
   D. Mass. Judgment dated May 8, 2012.
41
   D. Mass. Indict. dated Mar. 23, 2011.
42
   D. Mass. Arrest Warrant executed Mar. 25, 2011.
43
   D. Mass. Verdict dated Feb. 8, 2012.
44
   D. Mass. Indict. dated Mar. 23, 2011.
45
   Id.
46
   Id.


                                                     April 1, 2012 – September 30, 2012   37
                                           TIGTA SEMIANNUAL REPORT TO CONGRESS



Employee and Infrastructure Security

TIGTA has the statutory responsibility to protect Federal tax administration by
identifying and investigating threats to IRS personnel and physical infrastructure. OI is
committed to protecting approximately 100,000 IRS employees and more than 700 IRS
facilities throughout the country, so employees can feel secure and focus on performing
their critical jobs. During this six-month reporting period, threat and assault
investigations accounted for 39 percent of OI’s work.

In 2011, OI assumed the sole authority and responsibility for all armed escorts of IRS
employees. OI special agents provide escorts to IRS employees to ensure their safety
when interacting with hostile and potentially dangerous taxpayers. OI conducted 42
armed escorts during this reporting period.

To support OI’s proactive threat initiatives, particularly as they relate to anti-tax and anti-
government extremist groups, OI established a full-time presence at the Federal Bureau
of Investigation’s (FBI) National Joint Terrorism Task Force and the Domestic Terrorism
Operations Unit. These representatives ensure the timely dissemination of threat
information that directly impacts IRS personnel, facilities, or critical infrastructure to OI.

The following case is an example of OI’s effort to provide IRS employees with a safe
and secure working environment.

Fugitive Larry M. Myers Sentenced for Conspiracy to Obstruct Justice

On May 14, 2012, in Tampa, Florida, fugitive Larry M. Myers was sentenced to 78-
months imprisonment to be followed by 24 months of supervised probation. He was
also ordered to pay a $250 special assessment fee. 47 Myers was indicted along with 10
other individuals in March 1996. 48 He remained a fugitive for 14 years 49 until his arrest
on August 5, 2011. 50

According to the indictment, on at least two previous occasions, Myers and his co-
conspirators were investigated for obstruction of justice. Myers and his co-conspirators
were members of “The Constitutional Court of We The People In and For The United
States of America;” also known as the “Constitutional Common Law Court” (CLC); also
known as “The Supreme Court of the Constitutional Court of We the People – In and
For the united [sic] States of America,” which was a pseudo-judicial, non-governmental,
and unofficial enterprise, created and established in 1992 in Tampa, Florida. 51
In conjunction with his co-conspirators, Myers established “The Constitutional Common
Law Militia” (Militia) to act as the “Supreme Law Enforcement Authority” of the CLC.

47
   M.D. Fla. Sentencing Notice filed May 14, 2012.
48
   M.D. Fla. Indict. filed Mar. 15, 1996.
49
   M.D. Fla. Joint Status Report filed Sept. 15, 2011.
50
   M.D. Fla. Arrest Warrant Return filed Aug. 23, 2011.
51
   M.D. Fla. Indict. filed Mar. 15, 1996.



38         April 1, 2012 – September 30, 2012
           TIGTA SEMIANNUAL REPORT TO CONGRESS



The Militia was entrusted by the CLC to execute its “arrest warrants,” and to enforce its
judicial “orders.” Militia members were, in most cases, participants in or “members” of
the CLC. 52 Among other things, members of this group were subjects of an IRS
investigation and inquiry into the potential use of violence by individuals who advocate
unlawful non-compliance with the United States Tax Code. 53

The Internal Security Division of the IRS, now known as TIGTA, participated in the
investigation of Myers and his co-conspirators. Myers, along with others, sent a
"complaint" to the assigned IRS Inspector accusing him of treason, and threatened
arrest and incarceration unless he ceased his investigation. 54

On February 14, 2012, Myers was found guilty by a Federal jury of: conspiring to use
threats and intimidation to prevent officers of the United States, including the IRS
Inspector, from carrying out their official duties; mailing threatening communications
with the intent to extort a thing of value; and obstruction of justice. The jury also found
Myers guilty of conspiracy to mail threatening communications to intimidate and impede
jurors and judicial personnel in the discharge of their lawful responsibilities. 55

External Attempts to Corrupt Tax Administration
TIGTA investigates external attempts to corrupt or impede the administration of Internal
Revenue laws, such as impersonation of IRS employees or misuse of IRS seals, filing
false or frivolous documents against IRS employees, using fraudulent IRS
documentation to perpetrate criminal activity, offering bribes to IRS employees to
influence their tax cases, and fraud committed by contractors hired by the IRS. During
this reporting period, investigations into attempts to corrupt or impede tax administration
accounted for 11 percent of OI’s work.

The following cases are examples of OI’s efforts to deter external attempts to corrupt
tax administration during this six-month reporting period:

California Woman Sentenced for Misusing Treasury Department Symbols

On June 11, 2012, in the Eastern District of California, Desiree Caldwell, Chief
Executive Officer of Elite HR Logistics, was sentenced to 36 months of probation and
ordered to pay a fine of $1500 and a $25 assessment fee. 56

Caldwell pled guilty to one count of misusing the Department of the Treasury symbols or
emblems. 57 According to court documents, Caldwell cut out an image of the IRS seal,
as well as the signature of an IRS employee, from a document she had previously

52
   M.D. Fla. Indict. filed Mar. 15, 1996.
53
   Id.
54
   Id.
55
   M.D. Fla. Sentencing Notice filed May 14, 2012.
56
   E.D. Cal. Judgment June 11, 2012.
57
   E.D. Cal. Plea Agr. Feb. 27, 2012.


                                                     April 1, 2012 – September 30, 2012   39
                                            TIGTA SEMIANNUAL REPORT TO CONGRESS


received from the IRS, and taped the seal and signature onto a fake Letter of
Subordination she created. Caldwell then created and faxed the fake letter to Riviera
Finance to convey the false impression that the Letter of Subordination had been
approved, endorsed, and authorized by the IRS. Relying upon the fake Letter of
Subordination, Riviera Finance provided Caldwell’s company $7,807.33 in financing. 58

Gavriel Murdukhayevich Aronov Arrested for Bribery

On June 8, 2012, in Phoenix, Arizona, Gavriel Murdukhayevich Aronov, who owns and
operates a small business with significant cash receipts, 59 was arrested for attempting
to bribe an IRS employee. 60 According to the indictment, in January 2012, an IRS
revenue agent met with Aronov to initiate an income tax audit. During the course of the
audit, the revenue agent determined that Aronov owed approximately $34,000 in
additional unpaid taxes and penalties based on unreported income. On April 10, 2012,
Aronov offered a bribe to the revenue agent to avoid a tax liability, and on April 20,
2012, he provided the revenue agent with an envelope containing $4,000 in cash.
Aronov also promised an additional $1,000 upon receipt of an audit report showing zero
tax liability. 61




58
   E.D. Cal. Plea Agr. Feb. 27, 2012.
59
   D. Ariz. Indict. filed June 5, 2012.
60
   D. Ariz. Arrest Warrant Return filed June 8, 2012.
61
   D. Ariz. Indict. filed June 5, 2012.



40         April 1, 2012 – September 30, 2012
           TIGTA SEMIANNUAL REPORT TO CONGRESS




      Advancing Oversight of America’s Tax
                   System
      IGTA’s Office of Inspections and Evaluations (I&E) provides responsive, timely,


T     and cost-effective inspections and evaluations of challenging areas within the
      IRS, providing TIGTA with additional flexibility and capability to produce value-
      added products and services to improve tax administration. I&E’s work is not a
      substitute for audits and investigations; in fact, its findings may result in
subsequent audits and/or investigations.

The Office has two primary product lines: inspections and evaluations.

Inspections are intended to:

      •   Provide factual and analytical information;
      •   Monitor compliance;
      •   Measure performance;
      •   Assess the effectiveness and efficiency of programs and operations;
      •   Share best practices; and
      •   Inquire into allegations of waste, fraud, abuse, and mismanagement.

Evaluations are intended to:

      •   Provide in-depth reviews of specific management issues, policies, or programs;
      •   Address Government-wide or multi-agency issues; and
      •   Develop recommendations to streamline operations, enhance data quality, and
          minimize inefficient and ineffective procedures.

The following report highlights some of the significant activities that I&E has engaged in
during this six-month reporting period:

Oversight of the Public Transportation Subsidy Program Can Be Further
Improved

This project was initiated as a follow-up review of an earlier report 62 to determine
whether the IRS had implemented corrective actions and established the necessary
controls to ensure that the Public Transportation Subsidy Program (Program) is
properly monitored and effectively administered.
In March 2006, TIGTA found that the IRS was in basic compliance with the law63 and
had established procedures to administer the Program. However, to enhance Agency-

62
   TIGTA, Ref. No. 2006-10-062, The Administration of the Public Transportation Subsidy Program Can
Be Improved, (March 23, 2006).
63
   5 U.S.C. § 7905.


                                                        April 1, 2012 – September 30, 2012            41
                                             TIGTA SEMIANNUAL REPORT TO CONGRESS


Wide Shared Services (AWSS) processes and controls, TIGTA recommended that
AWSS:

      •   Establish an annual recertification process for all employees participating in the
          Program;
      •   Require employees to certify their actual commuting costs when picking up
          their transit subsidies;
      •   Develop a better process to ensure that separated employees are removed
          promptly from the Department of Transportation (DOT) database; and
      •   Periodically match a valid statistical sample of IRS subsidy recipients to the
          DOT invoices to ensure that the invoices are limited to employees.

IRS management agreed to these recommendations. However, TIGTA found that the
AWSS management has implemented only portions of the corrective actions proposed
to address each of the recommendations made in 2006.

The IRS initiated a computerized application for the initial program enrollment,
management approval, and subsequent subsidy change requests. Some employees
are completing annual recertification, but this requirement is not yet in place IRS-wide.
When picking up the subsidy, participants certify by their signature the actual
commuting expenses for the previous period.

Travel Services Branch staff members access multiple internal data sources to identify
and remove separated employees from the Program database. Also, Travel Services
Branch staff members select a monthly statistical sample of participants for review to
verify that only IRS employees are receiving the benefit and to identify any potential
abuse within the Program. However, the reviews could be more accurate if additional
data sources were used. Further, the Travel Services Branch did not always maintain
records of the cases that its staff members had referred to TIGTA’s Office of
Investigations, and the results of the Program reviews were not shared with either the
affected employees or their managers.

TIGTA recommended that the Chief, AWSS:

      •   Ensure that the IRS completes the rollout of the recertification process IRS-
           wide;
      •   Ensure that the Internal Revenue Manual (IRM) 64 is updated to include the
           specific requirements for recertification;
      •   Increase coordination with the DOT to identify an effective process for removing
           separated employees from the DOT database, in order to reduce the potential
           loss of IRS Program funds; and



64
  The IRM is the IRS’s primary official source of instructions to staff relating to the administration and
operations of the IRS. It contains the directions employees need to carry out their operational
responsibilities.



42         April 1, 2012 – September 30, 2012
          TIGTA SEMIANNUAL REPORT TO CONGRESS



     •   Modify the current review processes by including additional data sources to
         improve the accuracy of the review results.

TIGTA also recommended that the Chief:

     •   Publish the necessary IRM procedures to ensure that managers and
         participants are notified when a review identifies questions concerning the
         accuracy of the transportation subsidy; and
     •   Develop Program operating procedures to include requirements for
         documenting all referrals made to any party external to the Travel Services
         Branch staff.

The Chief, AWSS, agreed with these recommendations and has initiated, or plans to
initiate, corrective actions. Implementation of these corrective actions will enhance the
accountability of the Program by improving internal controls and communications. Many
of these corrective actions will require negotiations with the NTEU before they can be
implemented.
Report Reference No. 2012-IE-R004




                                                 April 1, 2012 – September 30, 2012    43
                                   TIGTA SEMIANNUAL REPORT TO CONGRESS




44   April 1, 2012 – September 30, 2012
           TIGTA SEMIANNUAL REPORT TO CONGRESS




              TIGTA’s International Programs
TIGTA is committed to providing comprehensive oversight of IRS international programs
and operations by developing a strategy of international audit, inspection, and law
enforcement liaison and outreach. This will enhance TIGTA’s capacity to execute its
oversight model in the international environment.

The International Tax Gap

The IRS defines the Tax Gap as the difference between the estimated amount taxpayers
owe and the amount they voluntarily and timely pay for a tax year. The International Tax
Gap – the amount the U.S. loses each year that is attributable to the abuse of offshore tax
havens is estimated to be approximately $100 billion. 65

The IRS has embraced a Service-wide approach to international tax administration that
seeks to address more effectively the increased globalization of both individuals and
businesses. This strategy is designed to improve voluntary compliance with international
tax provisions and to reduce the tax gap attributable to international transactions.

IRS Exchange of Information Program

A key component in this IRS strategy is the Exchange of Information (EOI) Program. The
EOI Program is an important tool for effective tax administration in the global environment
because it promotes transparency in
international transactions. International
agreements, such as tax treaties and Tax
Information Exchange Agreements (TIEA),
are administered to avoid double taxation and
to enforce the tax laws. TIEAs facilitate the
exchange of information between the U.S.
and many other countries, even where there
is no bilateral tax treaty in place. They
generally allow for mutual assistance for both
civil and criminal investigations. Recent
TIEAs involve countries such as the
Netherland Antilles, the Cayman Islands,
Jersey, the British Virgin Islands, Guernsey, Antigua, and the Isle of Man.
The IRS administers its EOI Program through Tax Attachés, a Revenue Service
Representative, and Headquarters Managers, in six offices located around the world:
     •   National Headquarters, Washington, D.C.
     •   Revenue Service Representative, Plantation, Florida
     •   Tax Attaché, London, United Kingdom
65
   U.S. Senate Committee on Homeland Security and Government Affairs, Permanent Subcommittee on
Investigations,Tax Haven Banks and U.S. Tax Compliance. Washington D.C. July 17, 2008,
http://hsgac.senate.gov/public/_files/071708PSIReport.pdf.




                                                      April 1, 2012 – September 30, 2012      45
                                             TIGTA SEMIANNUAL REPORT TO CONGRESS



      •   Tax Attaché, Paris, France
      •   Tax Attaché, Frankfurt, Germany
      •   Tax Attaché, Beijing, China

Inspection of the EOI Process at the Plantation, Florida, Office

TIGTA continues to execute risk assessment inspections designed to highlight challenges
to the effectiveness of the IRS’s international activities. These inspections are designed to
be repeated over time and across all IRS locations involved in international operations.
The data gathered will subsequently be analyzed for potential trends and other indicators
that will assist management in identifying potential risk areas in IRS’s international
                                                  operations.

                                                           TIGTA reviewed the operations at the
                                                           Plantation, Florida, office to ensure that
                                                           the IRS was applying relevant policies
                                                           and procedures consistently in its
                                                           interaction with treaty partners through
                                                           the international EOI Program. The
                                                           review determined that the Plantation,
                                                           Florida, office is operating largely in
                                                           compliance with applicable IRM
                                                           requirements.

                                                           The inspection covered all 190 cases in the
                                                           Plantation office EOI Program inventory
                                                           that were closed from April 1, 2011 through
                                                           March 31, 2012. Each case file was
                                                           reviewed for documentation to verify that
                                                           as many as 15 specific controls detailed in
                                                           the IRM were appropriately followed.
                                                           Among TIGTA’s specific findings were the
                                                           following:

                                                               • Second-Level Managerial
                                                           Approval (Specific Exchanges) – The
                                                           IRM requires that all requests to foreign
                                                           tax authorities be approved by second-
                                                           level management. 66 Our review
                                                           determined that only 39 percent of the
                                                           EOI cases involving an outgoing
                                                           request to a foreign tax authority were
                                                           approved by second-level management
                                                           as required.


66
     IRM 4.60.1.2.4.2(3), Written Request Format (Jan. 1, 2002).



46           April 1, 2012 – September 30, 2012
           TIGTA SEMIANNUAL REPORT TO CONGRESS



     •   60-Day Status Reports – The IRM requires that EOI Program offices provide
         60-day status reports to the IRS field offices that have submitted a request for
         information from a foreign tax authority. 67 TIGTA’s review determined that, while
         most of the EOI cases that involved a U.S.-initiated request pursuant to a tax
         treaty or a TIEA did contain evidence of the required status report, 37 percent did
         not.

     •   Competent Authority Delegation – The IRM requires that all exchanges of
         information with foreign tax administrations must occur through the U.S.
         Competent Authority. 68 TIGTA’s review determined that 100 percent of these
         exchanges were processed through the U.S. Competent Authority delegate.

     •   IRS Criteria Checklist – The IRM requires that each case “include a checklist
         that is to be completed on each incoming request to ensure that the foreign
         request meets IRS criteria.” 69 TIGTA’s review determined that checklists were
         completed in 98 percent of the cases involving a foreign-initiated request.

     •   Receipt Confirmation – The IRM requires that, upon receipt by a field office of a
         foreign-initiated request, the manager must confirm receipt with the EOI Program
         office and provide the assignment information. 70 TIGTA’s review determined that
         the field office confirmed receipt of the request in 96 percent of the cases in
         which foreign-initiated requests were referred to a field office.

     •   Field Office 60-Day Response/Status – Regarding foreign-initiated requests
         that are referred to a field office, the IRM requires that within 60 days from the
         date of the transmitting memorandum the revenue agent or international
         examiner must either obtain the requested information or provide a status report
         and the estimated completion date. 71 TIGTA’s review determined that the field
         office provided the requested information or a status report within 60 days in 91
         percent of the cases.

The remaining nine inspection items were not applicable, since the Plantation office did not
process and close during the time frame under inspection any of the applicable types of
cases, such as requests from foreign competent authorities seeking grand jury information,
simultaneous examinations, or industry-wide exchanges with foreign tax authorities.
Additionally, although the inspection reviewed 32 spontaneous exchange cases, none of
the cases were initiated by a U.S. examiner. Consequently, none required the exchange to
be processed through a second-level manager (i.e., all of the cases were initiated by
foreign tax authorities).



67
   IRM 4.60.1.2.4.3(4), U.S. Initiated Specific Requests (Jan. 1, 2002).
68
   IRM 4.60.1.2(3), Specific Exchange Program (Jan. 1, 2002).
69
   IRM 4.60.1.2.5(2), Foreign Initiated Specific Requests (Jan. 1, 2002).
70
   IRM 4.60.1.2.5.1.1(3), Procedures for SBSE and LMSB Cases (Jan. 1, 2002).
71
   Id.


                                                        April 1, 2012 – September 30, 2012   47
                                         TIGTA SEMIANNUAL REPORT TO CONGRESS


TIGTA recommended that the IRS Assistant Deputy Commissioner, International:

     •   Evaluate whether or not the IRM provisions requiring that all requests to foreign tax
         authorities be approved by second-level management, and that EOI Program offices
         provide 60-day status reports to the IRS field offices that have submitted a request
         for information received from a foreign tax authority, beneficially contribute to the
         effective administration of the EOI Program;
     •   Revise the IRM regulations and any other local procedural guidance as necessary to
         be consistent with that evaluation; and
     •   Establish effective managerial oversight procedures to ensure compliance with those
         regulations.

IRS management agreed with these recommendations and has already taken corrective
action.
Report Reference No. 2012-IE-R006

International Visitors

TIGTA’s international strategy includes engaging
with foreign tax authorities in the sharing of
mutually beneficial strategies for providing
oversight of the IRS and foreign national revenue
collection agencies. During this six-month
reporting period, TIGTA was very pleased to host
delegations from Cambodia, South Africa, Croatia,
and Indonesia. These international visits,
administered in association with the IRS
International Visitors Program, serve to build
working relationships and foster increased
cooperation in the arena of international tax
administration.

Cambodia

In June 2012, TIGTA hosted a seven-member delegation from the General Department of
Taxation (GDT) of the Royal Government of Cambodia, led by His Excellency Sim Eang,
Delegate of the Royal Government in Charge as Director General of the GDT. The GDT
had previously worked with the U.S. Department of the Treasury, Office of Technical
Assistance (OTA), to begin developing an employee training handbook about the
importance of maintaining the confidentiality of taxpayer data. In that context, and upon
OTA’s advice, the GDT wanted to discuss with IRS and TIGTA officials the importance of
ethics and integrity in tax administration, and to learn how these issues are handled both
within the IRS and by TIGTA in its oversight capacity.




48         April 1, 2012 – September 30, 2012
          TIGTA SEMIANNUAL REPORT TO CONGRESS



The GDT met with the Inspector General and representatives from TIGTA’s Offices of
Audit, Investigations, Inspections and Evaluations, and Chief Counsel. The topics
discussed included:

   •   The organization and responsibilities of TIGTA, and its relationship with the IRS;
   •   IRS policies regarding confidentiality of taxpayer information, disclosure, ethics, and
       integrity;
   •   The development and delivery of ethics training material;
   •   Integrity Awareness Presentations delivered to employees;
   •   Employee training about protecting taxpayer information from disclosure; and
   •   Different types of unauthorized disclosures and how they are handled.

South Africa

In July 2012, TIGTA hosted a three-member delegation from the South African Revenue
Service. The delegation was led by Mmathabo Abigail Sukati, Group Executive: Internal
Audit. The delegation sought to understand how the internal audit function is positioned to
ensure the effective and efficient provision of internal audit services to the IRS, including
the methodologies and tools used, risk assessments, and performance management
systems.

The delegation met with representatives from TIGTA’s Office of Audit. As TIGTA is an
independent organization and does not provide internal audit services for the IRS, the
audit-centric discussion provided a better understanding of TIGTA’s role in our Nation’s tax
administration and its relationship with the IRS.

Croatia

In August 2012, TIGTA hosted a three-member delegation from the Croatian Tax
Administration (CTA), led by Mrs. Nada Čavloviċ Smiljanec, CTA Director General. The
group formally met with the Inspector General and the respective heads of TIGTA’s Offices
of Audit, Investigations, Inspections and Evaluations, as well as the Chief Counsel. The
CTA members wanted a better understanding of the role TIGTA plays in providing
independent oversight of IRS activities in regards to promoting the effectiveness and
efficiency of the administration of the U.S. tax system.

Indonesia

In September 2012, TIGTA hosted the Indonesian Working Group on Strengthening
Integrity and Accountability. This group was established with the cooperation of the U.S.
Agency for International Development (USAID) office in Jakarta, Indonesia, and includes
government officials, journalists, academicians, and public interest specialists. The 24-
member group that participated in this visit also included representatives from USAID.




                                                   April 1, 2012 – September 30, 2012    49
                                         TIGTA SEMIANNUAL REPORT TO CONGRESS


The group met with the Inspector General and representatives from TIGTA’s Offices of
Audit, Investigations, Inspections and Evaluations, and Chief Counsel. Topics of interest to
this group included a variety of areas common to Offices of Inspector General (OIG)
activities, including:

     •   OIG scope, operations, and management;
     •   OIG Audits, Investigations, and Hotlines;
     •   Whistleblower protection;
     •   Performance management; and
     •   Law, legislation, and regulations.

TIGTA includes international tax administration as part of its annual audit planning
process. At the end of FY 2012, TIGTA was finishing several reviews. These include a
review of the Foreign Earned Income Exclusion where TIGTA is determining the
impact of this exclusion on tax administration. TIGTA is also looking at the IRS’s
processing of Foreign Currency Payments to determine if taxpayer payments
collected in foreign currencies are being effectively and efficiently processed. In
addition, TIGTA’s review of Foreign Corporations Filing Compliance will determine
whether the IRS’s automated penalty process has achieved its goal of encouraging
filing compliance for entities with Forms 5471, Information Returns of U.S. Person With
Respect to Certain Foreign Corporations, reporting requirements.




50         April 1, 2012 – September 30, 2012
              TIGTA SEMIANNUAL REPORT TO CONGRESS




     American Recovery and Reinvestment Act
                    of 2009
The American Recovery and Reinvestment Act of 2009 (Recovery Act) 72 was enacted
on February 17, 2009. The Recovery Act presented significant challenges to all Federal
agencies as they moved to implement provisions quickly while attempting to minimize
risk and meet increased standards for transparency and accountability. With its 56 tax
provisions (20 related to individual taxpayers and 36 related to business taxpayers), the
Recovery Act poses significant challenges to the IRS as the Nation’s tax collection
agency and administrator of the tax laws.

TIGTA has issued numerous reports related to the IRS’s efforts to implement Recovery
Act tax provisions. For this six-month reporting period, TIGTA issued the following
significant report:

Deficiencies Continue to Exist in Verifying Contractor Labor Charges Prior to
Payment

The IRS’s Recovery Act funds expired on September 30, 2011. As such, only the funds
that were obligated by the IRS prior to this date are available for the IRS to expend. As
of October 11, 2011, the IRS had awarded 25 procurement actions to 17 contractor
companies for Recovery Act program initiatives. These actions included procurements
for reprogramming IRS computer systems, updating related tax forms and publications,
and providing customer services to assist taxpayers with the new tax law provisions
included in the Recovery Act. The total contract value of these initiatives was
$85.4 million, of which $83.2 million had been disbursed to various contractors by
October 1, 2011. The IRS follows the same laws, principles, procedures, and practices
in awarding and administering contracts with Recovery Act funds as it does with other
funds. However, there are additional OMB mandated requirements for Recovery Act
procurements.

TIGTA’s review of a statistically valid sample of $1 million in labor charges determined
that the IRS did not have documentation supporting $394,430 of the invoiced labor
hours that it had paid. Applying the results of the analysis to the $5.3 million in labor
charges for the procurement in which TIGTA identified unsupported payments, TIGTA
estimates a total of $927,992 may have been erroneously paid. IRS COTRs did not
obtain required documentation supporting all billed labor charges. The unsupported
labor charges relate to work performed by contractor and subcontractor employees. In
contrast, TIGTA’s review of a sample of $34,306 in travel expenses found that COTRs
did obtain documentation supporting the travel expenses claimed. TIGTA confirmed
that the travel expenses submitted and paid by the IRS were consistent with Federal
Travel Regulations.


72
     Pub. L. No. 111-5, 123 Stat. 115.


                                                  April 1, 2012 – September 30, 2012    51
                                         TIGTA SEMIANNUAL REPORT TO CONGRESS


TIGTA’s review also determined that some labor hours billed and paid were at higher or
lower rates than established in the contract for the qualification level of the individual for
whom the hours were billed. Finally, TIGTA found that although the Contracting
Officers verified the qualifications and experience levels of those contractor employees
who were designated as key personnel, a similar verification of a random sample of the
remaining personnel was not performed by the responsible COTR as required by their
appointment letter.

TIGTA recommended that the IRS ensure:

     •   That established processes and procedures to verify all labor charges are
         followed prior to payment;
     •   The validity of all labor charges associated with the procurement that TIGTA
         identified as having a total amount paid of $394,430 for labor charges that were
         not supported by required documentation. Actions should be initiated to recover
         any funds identified as being paid erroneously; and,
     •   That COTRs are in compliance with the requirement to perform random checks
         of resumes of individuals who are not considered to be key personnel if this
         requirement is included in their appointment letter.

IRS management agreed with the recommendations and stated that it plans to take
corrective actions.
Reference No. 2012-11-101

In addition to this report, TIGTA responded to requests from the Recovery
Accountability and Transparency Board (RATB):

ARRA Lessons Learned Survey

TIGTA participated in a multi-agency review of lessons learned implementing and
executing the Recovery Act. On March 23, 2012, the RATB issued a letter to the
Commissioner of the IRS informing him of the 16 agencies and departments that are to
participate in the review. The overall objective of the Lessons Learned Survey was to
identify which actions, processes, and mechanisms have either been beneficial or
posed challenges to agencies, departments, and their respective Offices of Inspector
General in meeting the requirements of the Recovery Act. Central to the review were
cross-cutting issues that have surfaced in the following areas:

     •   Pre-award processes associated with Recovery Act funds;
     •   Outreach, education, and technical assistance provided to Recovery Act funds
         recipients;
     •   Performance measures; and
     •   Oversight.

As a result, TIGTA consolidated and classified IRS’s responses to the Lessons Learned
Survey and has forwarded it to the Office of Inspector General, Department of the



52         April 1, 2012 – September 30, 2012
              TIGTA SEMIANNUAL REPORT TO CONGRESS



Interior, to be consolidated with responses from the other 15 agencies. IRS expressed
a high degree of satisfaction with their implementation of the Recovery Act requirements
while acknowledging that improvements could have been made.
Project # IE-12-008-A

Agency Verification of Recovery Act Funds

The Recovery Act authorized stimulus funds to be spent within very specific time
frames. In keeping with its mission of transparency and accountability of Recovery Act
funds, the RATB asked TIGTA to coordinate with the IRS and to respond to the
following:

      •   Review and confirm the accuracy of the appropriation amount for each
          Treasury Account Funding Symbol (TAFS), or provide the amount of
          apportionment received from the Office of Management and Budget
          (OMB) for all formula-driven entitlements. In the event that the
          appropriation amount is incorrect, provide the correct amount and an
          explanation of the difference (e.g., rescissions, transfers in/out).

      •   Review and confirm that the obligation amount, as reported on the
          Recovery Act Financial Activity Report (FAR) dated June 30, 2012, for
          each TAFS, is correct.

      •   Provide a list of all expired funds, or funds that are projected to expire,
          by TAFS. This includes identifying any waivers granted by OMB that
          permit the obligation of Recovery Act funds past the December 31,
          2012 deadline, as cited in the Dodd-Frank Wall Street Reform and
          Consumer Protection Act, 73 or any other special circumstances
          regarding time frames for obligating remaining funds.

TIGTA received a response from the Department of the Treasury on behalf of the IRS,
and the response was forwarded to the RATB. The RATB will use the collected
information to publish a list of Recovery Act appropriations and obligations as reported
by the agencies.
Project # IE-12-014-A




73
     Pub. L. No. 111-103, 124 Stat. 1376 (2010).


                                                       April 1, 2012 – September 30, 2012   53
                                   TIGTA SEMIANNUAL REPORT TO CONGRESS




54   April 1, 2012 – September 30, 2012
           TIGTA SEMIANNUAL REPORT TO CONGRESS




      An Organization That Values Its People
TIGTA's Training Academy Receives FLETA Accreditation

On July 12, 2012, TIGTA Training Academy Special Agent Advanced Training Program
was awarded initial program accreditation by the Federal Law Enforcement Training
Accreditation Board (FLETA). The training academy received initial accreditation from
FLETA in November 2008, and reaccreditation in November 2011.




Pictured from left to right: Annette Scanlon, Training Specialist; Kay Arthur, Program Analyst/Accreditation
Manager; Mike Radetic, Assistant Special Agent in Charge; Michael Delgado, Assistant Inspector
General for Investigations; Marvin Weindorff, Special Agent; Gayle Hatheway, Special Agent in Charge;
and Jacquelyne Ellison, Special Agent.




                                                            April 1, 2012 – September 30, 2012           55
                                   TIGTA SEMIANNUAL REPORT TO CONGRESS




56   April 1, 2012 – September 30, 2012
           TIGTA SEMIANNUAL REPORT TO CONGRESS




                      Congressional Testimony
During this reporting period, Inspector General J. Russell George testified before
Congress on two occasions. The following are summaries of his testimony.

On April 19, 2012, Mr. George testified before the House Committee on Oversight and
Government Reform, Subcommittee on Government Organization, Efficiency, and
Financial Management, on “Problems at the Internal Revenue Service: Closing the Tax
Gap and Preventing Identity Theft.” Mr. George described how TIGTA provides
oversight of the IRS’s efforts to ensure that taxpayers comply with their tax obligations,
as well as what the IRS is doing to address the growing risk of identity theft and tax
fraud.

A wide range of factors influence voluntary compliance, including tax law changes, the
economy, and changing demographics of the taxpayer population. There are also
indirect effects of IRS enforcement activities beyond the direct effects of additional
revenue collection. However, the IRS stated that it is very difficult to determine the
impact that any IRS activity has on voluntary compliance.

From the perspective of tax administration, the IRS needs to overcome institutional
impediments to more effectively address the Tax Gap (the difference between the
estimated amount taxpayers owe and the amount they voluntarily and timely pay for a
tax year). Such institutional impediments include incomplete compliance research,
insufficient compliance strategies, incomplete document matching programs, and
insufficient enforcement resources.

The IRS also has the challenging task of maintaining a quality workforce and enforcing
tax laws in an environment of constantly changing tax legislation. For example, during
FY 2010, the IRS encountered challenges from a variety of tax provisions that were
created, extended, or expanded, including the American Recovery and Reinvestment
Act, 74 the Worker, Homeownership, and Business Assistance Act of 2009, 75 the Hiring
Incentives to Restore Employment Act of 2010 (HIRE Act), 76 and the Patient Protection
and Affordable Care Act of 2010 (Affordable Care Act). 77

In order to better address the Tax Gap, the IRS has undertaken a number of
enforcement initiatives. In December 2009, the IRS announced a suite of proposed
reforms to improve oversight of the tax return preparer community. TIGTA is monitoring
the IRS’s implementation of its new Return Preparer Program, and has recommended
several corrective actions which the IRS has agreed to implement.

Third-party reporting and transparency are hallmarks of high levels of tax compliance.
The IRS has undertaken several initiatives in recent years to implement third-party

74
   Pub. L. No. 111-5, 123 Stat. 114.
75
   Pub. L. No. 111-92, 123 Stat. 2984.
76
   Pub. L. No. 111-147, 124 Stat. 71.
77
   Pub. L. No. 111-148, 124 Stat. 119.


                                                   April 1, 2012 – September 30, 2012    57
                                       TIGTA SEMIANNUAL REPORT TO CONGRESS


reporting requirements. These initiatives include new basis reporting requirements for
stockbrokers and mutual fund companies associated with the buying and selling of
securities, and new merchant card reporting requirements to provide third-party
reporting data on business receipts for the first time.

To improve its international compliance efforts, the IRS’s strategic initiatives focus on
strengthening reporting requirements, enhancing the IRS’s access to international data,
and aligning resources to cases and issues with the highest compliance risk. The IRS
continues to work with the U.S. Department of Justice on tax evasion cases involving
foreign countries that have bank secrecy laws which prevent the United States from
obtaining information on taxpayer transactions.

The Department of the Treasury and the IRS recognize that the delivery of effective
taxpayer service also has a significant impact on voluntary tax compliance. However,
as a result of budget constraints, the IRS expects to have fewer resources at its
disposal to provide such service.

TIGTA continues to assess efforts by the IRS to identify potentially fraudulent returns.
For instance, in TIGTA’s review of the IRS’s processes to identify potentially fraudulent
tax returns for screening, TIGTA auditors found that the majority of tax returns the IRS
identified as being filed by prisoners were not screened to assess fraud potential.
TIGTA has made a number of recommendations related to prisoner fraud. The IRS
partially agreed to these recommendations, but work remains before the IRS is fully in
control of this issue.

TIGTA is also identifying and quantifying potential tax refund losses resulting from
identity theft, and has found that the amount of tax refunds issued based on false
income documents is significantly greater than the amount detected and prevented by
the IRS. The IRS has continued to take actions to improve its Identity Theft Program.
Nevertheless, the improvements may not be sufficient to significantly reduce the burden
that identity theft has placed on tax administration and on taxpayers whose identities
have been stolen.

On May 8, 2012, Mr. George testified at a Joint Hearing before the House Committee
on Ways and Means, Subcommittees on Oversight and Social Security, on the subject
of identity theft and its impact on taxpayers and tax administration. Mr. George reported
that, at the beginning of the 2012 Filing Season, the IRS announced the results of a
nationwide sweep cracking down on suspected identity-theft perpetrators as part of a
stepped-up effort against refund fraud and identity theft. For instance, the IRS has
developed new identity-theft screening filters that it believes will improve its ability to
identify false tax returns before they are processed and before any fraudulent tax
refunds are issued. As of April 19, 2012, the IRS reported that it had stopped the
issuance of $1.3 billion in potentially fraudulent tax refunds as a result of its new
identity-theft filters.

However, the IRS does not know how many identity thieves are filing fraudulent tax
returns or the amount of revenue being lost. TIGTA evaluated the IRS’s efforts to



58       April 1, 2012 – September 30, 2012
           TIGTA SEMIANNUAL REPORT TO CONGRESS



identify and prevent fraudulent tax returns resulting from identity theft, 78 and found that,
although the IRS detects and prevents a large number of fraudulent refunds based on
false income documents, there is much fraud that it does not detect. For Tax Year 2010,
TIGTA identified approximately 1.5 million additional tax returns with potentially
fraudulent tax refunds totaling in excess of $5.2 billion that had gone undetected by the
IRS, and estimates that, unless the issue is addressed, the IRS could issue
approximately $26 billion in fraudulent tax refunds resulting from identity theft over the
next five years.

The IRS has faced budget cuts, a hiring freeze, and staffing reductions during the same
time it has encountered a significant surge in identity-theft refund fraud. Without the
necessary resources, even with improved identification of potentially fraudulent returns,
it is unlikely that the IRS will be able to work the entire inventory of potentially fraudulent
tax refunds it identifies.

Direct deposit, which now includes debit cards, is often used by identity thieves to obtain
fraudulent tax refunds. Approximately $4.5 billion of the $5.2 billion in potentially
fraudulent tax refunds that TIGTA identified were issued by direct deposit. In September
2008, we reported 79 that the IRS was not in compliance with direct deposit regulations
that require tax refunds to be deposited into an account only in the name of the individual
listed on the tax return. 80 To date, little has been done to ensure that tax refunds are
directly deposited only into the taxpayer’s account.

In May 2012, TIGTA completed an audit that evaluated the assistance that the IRS
provides to victims of identity theft, and found that the IRS is not effectively providing
assistance to these victims. 81 Of continuing concern is the length of time taxpayers must
work with the IRS to resolve identity theft cases.

As a result of an assessment of its Identity Theft Program completed in October 2011, the
IRS is currently planning improvements to the program. Nevertheless, these
improvements may not be sufficient to significantly reduce the burden that identity theft
has placed on tax administration and on taxpayers whose identities have been stolen.

Finally, when individuals steal identities and file fraudulent tax returns to obtain fraudulent
refunds before the legitimate taxpayers file, the crime is simple tax fraud and it falls within
the jurisdiction and programmatic responsibility of the IRS. However, there are related
variations of identity theft that fall within TIGTA’s jurisdiction. For instance, TIGTA is
responsible for conducting investigations of IRS employees who use their access to
taxpayer information as a means for stealing identities for the purpose of committing
identity theft.

78
   TIGTA, Ref. No. 2012-42-080, There Are Billions of Dollars in Undetected Tax Refund Fraud Resulting
 From Identity Theft (July 2012).
79
   TIGTA, Ref. No. 2008-40-182, Processes Are Not Sufficient to Minimize Fraud and Ensure the
Accuracy of Tax Refund Direct Deposits (Sept. 2008).
80
   31 C.F.R. Part 210 (2011).
81
   TIGTA, Ref. No. 2012-40-050, Most Taxpayers Whose Identities Have Been Stolen to Commit
Refund Fraud Do Not Receive Quality Customer Service (May 2012).


                                                         April 1, 2012 – September 30, 2012        59
                                   TIGTA SEMIANNUAL REPORT TO CONGRESS




60   April 1, 2012 – September 30, 2012
             TIGTA SEMIANNUAL REPORT TO CONGRESS




                         Audit Statistical Reports
                    Reports With Questioned Costs
 TIGTA issued two audit reports with questioned costs during this semiannual reporting
 period. 82 The phrase “questioned costs” means costs that are questioned because of:

      •   An alleged violation of a provision of a law, regulation, contract, or other
          requirement governing the expenditure of funds;
      •   A finding, at the time of the audit, that such cost is not supported by adequate
          documentation (an unsupported cost); or
      •   A finding that expenditure of funds for the intended purpose is unnecessary or
          unreasonable.

 The phrase “disallowed cost” means a questioned cost that management, in a
 management decision, has sustained or agreed should not be charged to the
 Government.


                                    Reports With Questioned Costs
                                                                    Questioned           Unsupported
             Report Category                       Number              Costs 83              Costs
                                                                  (in thousands)        (in thousands)
1. Reports with no management decision at
   the beginning of the reporting period              10               $200,912                   $82,147
2. Reports issued during the reporting period          2                 $2,406                     $928
3. Subtotals (Item 1 plus Item 2)                     12               $203,318                   $83,075
4. Reports for which a management decision
                                         84
   was made during the reporting period
   a. Value of disallowed costs                        1                     $17                      $0
   b. Value of costs not disallowed                    3               $132,101                   $49,773
5. Reports with no management decision
   at the end of the reporting period (Item 3
                 85
   minus Item 4)                                       9                 $71,201                  $33,302
6. Reports with no management decision
   within six months of issuance                       7                 $68,795                  $32,374




 82
    See Appendix II for identification of audit reports involved.
 83
    “Questioned costs” includes “unsupported costs.”
 84
    Includes one report in which the IRS allowed part of the questioned costs.
 85
    Difference due to rounding.


                                                             April 1, 2012 – September 30, 2012         61
                                              TIGTA SEMIANNUAL REPORT TO CONGRESS



 Reports With Recommendations That Funds
            Be Put to Better Use
 TIGTA issued seven audit reports during this semiannual reporting period with the
 recommendation that funds be put to better use. 86 The phrase “recommendation that
 funds be put to better use” means funds could be used more efficiently if management
 took actions to implement and complete the recommendation, including:
      •     Reductions in outlays;
      •     Deobligations of funds from programs or operations;
      •     Costs not incurred by implementing recommended improvements related to
            operations;
      •     Avoidance of unnecessary expenditures noted in pre-award reviews of contract
            agreements;
      •     Prevention of erroneous payment of refundable credits, e.g., Earned Income Tax
            Credit; or
      •     Any other savings that are specifically identified.
 The phrase “management decision” means the evaluation by management of the
 findings and recommendations included in an audit report, and the issuance of a final
 decision concerning its response to such findings and recommendations, including
 actions concluded to be necessary.


                   Reports With Recommendations That Funds Be Put to Better Use
                                                                                              Amount
                            Report Category                                Number
                                                                                          (in thousands)
1. Reports with no management decision at the beginning of the
   reporting period                                                            0                        $0
2. Reports issued during the reporting period                                  7               $21,940,094
3. Subtotals (Item 1 plus Item 2)                                              7               $21,940,094
4. Reports for which a management decision was made during the
                    87
   reporting period
   a. Value of recommendations to which management agreed
       i. Based on proposed management action                                  4                 $650,185
          ii. Based on proposed legislative action                             0                       $0
   b. Value of recommendations to which management did not agree               4               $21,289,909
5. Reports with no management decision at the end of the
   reporting period (Item 3 minus Item 4)                                      0                       $0
6. Reports with no management decision within six months of
   issuance                                                                    0                       $0




 86
   See Appendix II for identification of audit reports involved.
 87
   Includes one report in which the IRS partially agreed with the values associated with the
 recommendations.



 62           April 1, 2012 – September 30, 2012
           TIGTA SEMIANNUAL REPORT TO CONGRESS




Reports With Additional Quantifiable Impact
          on Tax Administration
In addition to questioned costs and funds put to better use, the Office of Audit has
identified measures that demonstrate the value of audit recommendations to tax
administration and business operations. These issues are of interest to IRS and
Treasury Department executives, Congress, and the taxpaying public, and are
expressed in quantifiable terms to provide further insight into the value and potential
impact of the Office of Audit’s products and services. Including this information also
promotes adherence to the intent and spirit of the Government Performance and
Results Act of 1993 (GPRA). 88

Definitions of these additional measures are:

Increased Revenue: Assessment or collection of additional taxes.

Revenue Protection: Proper denial of claims for refunds, including recommendations
that prevent erroneous refunds or efforts to defraud the tax system.

Reduction of Burden on Taxpayers: Decreases by individuals or businesses in the
need for, frequency of, or time spent on contacts, record keeping, preparation, or costs
to comply with tax laws, regulations, and IRS policies and procedures.
Taxpayer Rights and Entitlements at Risk: The protection of due process (rights)
granted to taxpayers by law, regulation, or IRS policies and procedures. These rights
most commonly arise when filing tax returns, paying delinquent taxes, and examining
the accuracy of tax liabilities. The acceptance of claims for and issuance of refunds
(entitlements) are also included in this category, such as when taxpayers legitimately
assert that they overpaid their taxes.
Taxpayer Privacy and Security: Protection of taxpayer financial and account
information (privacy). Processes and programs that provide protection of tax
administration, account information, and organizational assets (security).
Inefficient Use of Resources: Value of efficiencies gained from recommendations to
reduce costs while maintaining or improving the effectiveness of specific programs;
resources saved would be available for other IRS programs. Also, the value of internal
control weaknesses that resulted in an unrecoverable expenditure of funds with no
tangible or useful benefit in return.
Reliability of Management Information: Ensuring the accuracy, validity, relevance,
and integrity of data, including the sources of data and the applications and
processing thereof, used by the organization to plan, monitor, and report on its
financial and operational activities. This measure will often be expressed as an

88
  Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C.,
and 39 U.S.C.).


                                                          April 1, 2012 – September 30, 2012             63
                                                TIGTA SEMIANNUAL REPORT TO CONGRESS


absolute value, i.e., without regard to whether a number is positive or negative, of
overstatements or understatements of amounts recorded on the organization’s
documents or systems.
Protection of Resources: Safeguarding human and capital assets used by or in the
custody of the organization from inadvertent or malicious injury, theft, destruction, loss,
misuse, overpayment, or degradation.

The number of taxpayer accounts and dollar values shown in the following chart
were derived from analyses of historical data and are thus considered potential
barometers of the impact of audit recommendations. Actual results will vary
depending on the timing and extent of management’s implementation of the
corresponding corrective actions and the number of accounts or subsequent
business activities affected as of the dates of implementation. Also, a report may
have issues that affect more than one outcome measure category.


           Reports With Additional Quantifiable Impact on Tax Administration
                                                                     Number of
                                             Number of                                 Dollar Value
     Outcome Measure Category                        89              Taxpayer
                                             Reports                                 (in thousands)
                                                                     Accounts

Increased Revenue                                  8                       2,151            $228,868

Revenue Protection                                 2                     137,109             $60,275
Reduction of Burden on Taxpayers                   9                    3,425,791                $0
Taxpayer Rights and Entitlements at
Risk                                              13                    1,594,996           $182,488
Taxpayer Privacy and Security                      1                    1,492,215                $0
Inefficient Use of Resources                       4                             0            $7,006

Reliability of Management Information              6                             0              $13
Protection of Resources                            0                             0               $0


Management did not agree with the outcome measures in the following reports:
      •    Increased Revenue: Reference Numbers 2012-10-076 and 2012-40-117;
      •    Taxpayer Burden: Reference Numbers 2012-40-111 and 2012-40-117; and
      •    Reliability of Management Information: Reference Number 2012-10-044.

The following reports contained quantifiable impacts other than the number of taxpayer
accounts and dollar value:
      •    Taxpayer Burden: Reference Number 2012-30-093;
      •    Taxpayer Rights and Entitlements: Reference Number 2012-30-098; and
      •    Reliability of Management Information: Reference Numbers 2012-10-043,
           2012-10-044, 2012-10-055, 2012-10-058, and 2012-10-087.

89
     See Appendix II for identification of audit reports involved.



64            April 1, 2012 – September 30, 2012
              TIGTA SEMIANNUAL REPORT TO CONGRESS




                    Investigations Statistical Reports
                                Significant Investigative Achievements
                                     April 1, 2012 – September 30, 2012
          Complaints/Allegations Received by TIGTA
              Complaints against IRS Employees                                             2450
              Complaints against Non-Employees                                             2225
          Total Complaints/Allegations                                                    4675

          Status of Complaints/Allegations Received by TIGTA
              Investigations Initiated                                                     1560
                                         90
              In Process within TIGTA                                                         5
              Referred to IRS for Action                                                    149
              Referred to IRS for Information Only                                         1072
                                              91
              Referred to a Non-IRS Entity                                                    2
              Closed with No Referral                                                      1138
              Closed with All Actions Completed                                             697
               Returned to IRS – No Action Taken                                             52
          Total Complaints                                                                4675

          Investigations Opened and Closed
              Total Investigations Opened                                                  1753
              Total Investigations Closed                                                  1814

          Financial Accomplishments
              Embezzlement/Theft Funds Recovered                                     $3,640,085
              Court Ordered Fines, Penalties and Restitution                         $5,071,909
              Out-of-Court Settlements                                                        0
          Total Financial Accomplishments                                           $8,711,994




90
     Complaints for which final determination had not been made at the end of the reporting period.
91
     A non-IRS entity includes other law enforcement entities or Federal agencies.


                                                               April 1, 2012 – September 30, 2012     65
                                                  TIGTA SEMIANNUAL REPORT TO CONGRESS




                                Status of Closed Criminal Investigations
        Criminal Referral                                 Employee    Non-Employee         Total
            Referred – Accepted for Prosecution              29              41              70
            Referred – Declined for Prosecution             363             252             615
            Referred – Pending Prosecutorial Decision        23              16              39
                                     92                     415             309             724
        Total Criminal Referrals
        No Referral                                         459             641            1100


                                          Criminal Dispositions 93
        Criminal Disposition                             Employee      Non-Employee         Total
        Guilty                                              25               43             68

        Nolo Contendere (no contest)                         3               1               4
        Pre-trial Diversion                                  5               3               8
                               94                            3               3               6
        Deferred Prosecution
        Not Guilty                                           2               0               2
                     95                                      4               1               5
        Dismissed
        Total Criminal Dispositions                         42               51             93


                     Administrative Dispositions on Closed Investigations 96
        Administrative Disposition                                                         Total
        Removed or Terminated                                                                303
        Suspended/Reduction in Grade                                                         116
        Resigned Prior to Adjudication                                                        96
        Oral or Written Reprimand/Admonishment                                               129
        Clearance Letter                                                                      83
        Closed - No Action Taken                                                              55
                                97                                                           454
        Non-Employee Actions
        Total Administrative Dispositions                                                   1236




92
   Criminal referrals include both Federal and State dispositions.
93
   Final criminal dispositions during the reporting period. These data may pertain to investigations
referred criminally in prior reporting periods and do not necessarily relate to the investigations referred
criminally in the Status of Closed Criminal Investigations table above.
94
   Generally in a deferred prosecution, the defendant accepts responsibility for his/her actions, and
complies with certain conditions imposed by the court. Upon the defendant’s completion of the
conditions, the court dismisses the case. If the defendant fails to fully comply, the court reinstates
prosecution of the charge.
95
   Court dismissed charges.
96
   Final administrative dispositions during the reporting period. These data may pertain to investigations
referred administratively in prior reporting periods and do not necessarily relate to the investigations
closed in the Investigations Opened and Closed table.
97
   Administrative actions taken by the IRS against non-IRS employees.



66         April 1, 2012 – September 30, 2012
               TIGTA SEMIANNUAL REPORT TO CONGRESS




                                                Appendix I
               Statistical Reports - Other
      Audit Reports With Significant Unimplemented
                   Corrective Actions
   The Inspector General Act of 1978 requires the identification of significant
   recommendations described in previous semiannual reports for which corrective actions
   have not been completed. The following list is based on information from the IRS Office
   of Management Control’s automated tracking system maintained by Treasury
   Department management officials.

                                                 Projected         Report Title and Recommendation Summary
Reference           IRS              Issued     Completion    (F = Finding Number (No.), R = Recommendation No.,
 Number        Management                          Date                            P = Plan No.)
              Challenge Area

2007-10-082       Tax Exempt        May 2007                 Screening Tax-Exempt Organizations Filing Information
                 Organizations                               Provides Minimal Assurance That Potential Terrorist-Related
                                                             Activities Are Identified

                                                  06/15/13   F-1, R-1, P-1. Develop and implement a long-term strategy to
                                                             automate the matching of Forms 1023, Applications for
                                                             Recognition of Exemption Under Section 501 (c)(3) of the Internal
                                                             Revenue Code, and 990, Returns of Organization Exempt From
                                                             Income Tax, information against a consolidated terrorist watch list
                                                             to initially identify potential terrorist activities related to tax-exempt
                                                             organizations.

2008-40-167     Tax Compliance       August                  The Withholding Compliance Program Is Improving Taxpayer
                   Initiatives        2008                   Compliance; However, Additional Enforcement Actions Are
                                                             Needed

                                                  12/15/13   F-2, R-1, P-1. Create a single data entry point for processing
                                                             Withholding Compliance Program cases, and provide lock-in-
                                                             letter issuance authority to other IRS functions.

2009-10-107        Improving        July 2009                Controls Over Real Property Management Have Improved;
               Performance and                               However, Additional Efforts Are Needed to Address Planned
               Financial Data for                            Staffing Increases
              Program and Budget
                   Decisions                      06/15/13   F-1, R-2, P-1. Develop a comprehensive national policy
                                                             regarding workstation sharing for the flexi-place program and the
                                                             ratio of flexi-place employees to a shared workstation.
                                                  01/15/14   F-1, R-4, P-1. Develop procedures requiring that building level
                                                             projected space needs assessments include consideration of the
                                                             impact of workstation sharing, and be periodically reconciled in
                                                             total to agency-wide projected staffing levels.

2009-10-121        Improving        September                The Taxpayer Advocate Service Should Reevaluate the Roles
               Performance and        2009                   of Its Staff and Improve the Administration of the Taxpayer
               Financial Data for                            Advocacy Panel
              Program and Budget
                   Decisions                      12/15/12   F-2, R-1, P-1. Reevaluate the roles of the staff assigned to assist
                                                             the Panel and establish guidance to ensure that the Panel
                                                             functions independently.




                                                               April 1, 2012 – September 30, 2012                            67
                                                   TIGTA SEMIANNUAL REPORT TO CONGRESS



                                                    Projected         Report Title and Recommendation Summary
Reference           IRS                Issued      Completion    (F = Finding Number (No.), R = Recommendation No.,
 Number        Management                             Date                            P = Plan No.)
              Challenge Area

2009-40-130   Processing Returns      September                 Repeated Efforts to Modernize Paper Tax Return Processing
               and Implementing         2009                    Have Been Unsuccessful; However, Actions Can Be Taken to
               Tax Law Changes                                  Increase Electronic Filing and Reduce Processing Costs
              During the Tax Filing
                    Season                           02/15/14   F-1, R-2, P-1. Refocus the Modernized Submission Processing
                                                                Concept to include implementing a process to convert paper-filed
                                                                tax returns prepared by individuals using a tax preparation
                                                                software package into an electronic format.

2010-40-005    Providing Quality      December                  Individual Taxpayer Identification Numbers Are Being Issued
               Taxpayer Service         2009                    Without Sufficient Supporting Documentation

                                                     01/15/14   F-3, R-1, P-1. Ensure that the data on the Real-Time System are
                                                                accurate and validate the records that indicate an agent
                                                                submitted the application, to ensure that the Individual Taxpayer
                                                                Identification Number Program has accurate and reliable data to
                                                                oversee the Program.

2010-20-027   Taxpayer Protection     March 2010                Additional Security Is Needed For Access to the Registered
                  and Rights                                    User Portal

                                                     10/15/13   F-1, R-1, P-1. Require suitability checks on delegated users who
                                                                e-file tax returns or access the e-Services incentive products, and
                                                                disable the principal consent feature on e-Services that allows a
                                                                user to propagate his or her privileges to other users.
                                                     10/15/13   F-1, R-3, P-1. Enhance the e-file application on the Third-Party
                                                                Data Store to post the complete results of the Automated
                                                                Suitability Analysis Program’s spouse tax compliance check.
                                                     09/15/14   F-1, R-5, P-1. Make passwords more difficult to guess by
                                                                unauthorized individuals and decrease the use of SSNs as
                                                                usernames.
                                                     09/15/14   F-1, R-6, P-1. Implement a control to allow users to answer a
                                                                series of challenge questions to unlock their accounts.

2010-40-043        Taxpayer           March 2010                A Service-wide Strategy Is Needed to Address Growing
                  Compliance                                    Noncompliance With Individual Retirement Account
                   Initiatives                                  Contribution and Distribution Requirements

                                                     10/15/12   F-1, R-1, P-1. Ensure a Service-wide strategy is developed to
                                                                address retirement provision noncompliance.

2010-40-045    Security of the IRS    March 2010                Telephone Authentication Practices Need Improvement to
                                                                Better Prevent Unauthorized Disclosures

                                                     07/15/14   F-3, R-1, P-1. Incorporate available technology to authenticate
                                                                callers in the queue as part of the development of the
                                                                Authentication Retention Project.

2010-20-044   Modernization of the    May 2010                  Implementing Best Practices and Additional Controls Can
                     IRS                                        Improve Data Center Energy Efficiency and the
                                                                Environmental and Energy Program

                                                     02/28/13   F-1, R-2, P-1. Ensure that information technology equipment
                                                                energy use is measured in order to determine the energy,
                                                                efficiency, and savings from implementing energy improvements.
                                                     11/15/14   F-1, R-5, P-1. Ensure that energy audits are performed at the
                                                                data centers.




   68         April 1, 2012 – September 30, 2012
               TIGTA SEMIANNUAL REPORT TO CONGRESS



                                                  Projected         Report Title and Recommendation Summary
Reference           IRS               Issued     Completion    (F = Finding Number (No.), R = Recommendation No.,
 Number        Management                           Date                            P = Plan No.)
              Challenge Area

2010-20-056   Modernization of the   June 2010                Additional Efforts Are Needed to Implement the Electronics
                     IRS                                      Stewardship Program and Maximize the Energy Efficiency of
                                                              Desktop Computer Equipment

                                                   10/31/12   F-2, R-2, P-1. Develop a tracking system to support the ongoing
                                                              review of the IRS’ efforts in acquiring electronic products of which
                                                              at least 95 percent are Electronic Product Environmental
                                                              Assessment Tool-registered.

2010-30-061        Taxpayer          June 2010                Plans Exist to Engage the Tax Preparer Community in
                  Compliance                                  Reducing the Tax Gap; However, Enhancements Are Needed
                   Initiatives
                                                   01/15/14   F-1, R-1, P-1. Update the existing IRS Strategic Plan and ensure
                                                              that strategic plans have all of the information in the plans as
                                                              required by the Government Performance and Results Act of
                                                              1993 and Office of Management and Budget Circular A-11
                                                              (Preparation, Submission, and Execution of the Budget).
                                                   01/15/14   F-2, R-1, P-1. Define and include in the IRS Strategic Plan
                                                              sufficient measures to provide data that can be used to monitor
                                                              the IRS’s efforts to achieve objectives aimed at strengthening
                                                              partnerships with tax practitioners and paid preparers to ensure
                                                              effective tax administration.

2010-20-084   Security of the IRS     August                  More Actions Are Needed to Correct the Security Roles and
                                       2010                   Responsibilities Portion of the Computer Security Material
                                                              Weakness

                                                   10/15/12   F-2, R-1, P-1. Develop an effective and repeatable method to:
                                                              identify all IRS and contract employees performing in established
                                                              information technology security roles; include all IRS and contract
                                                              employees performing in information technology security roles in
                                                              the population for potential selection in the compliance
                                                              assessments; and develop adequate procedures to validate
                                                              compliance with current security role-related responsibilities
                                                              through compliance assessments that incorporate supporting
                                                              evidence of proper execution of assigned responsibilities.
                                                   09/30/12   F-3, R-1, P-1. Ensure that adequate and accurate metrics are
                                                              established that assess progress and can be analyzed to develop
                                                              actions to further improve implementation of security roles and
                                                              responsibilities policy.

2010-30-104        Taxpayer          September                Currency Report Data Can Be a Good Source for Audit Leads
                  Compliance           2010
                   Initiatives                     06/15/13   F-1, R-1, P-1. Explore the feasibility of making greater use of
                                                              Currency Transaction Reports to pursue additional nonfilers and
                                                              underreporters for audit.

2010-40-108    Providing Quality     September                Toll-Free Telephone Access Exceeded Expectations, But
               Taxpayer Service        2010                   Access for Hearing- and Speech-Impaired Taxpayers Could
                                                              Be Improved

                                                   01/15/13   F-1, R-1, P-1. Revise the various taxpayer instructions for calling
                                                              the IRS, including notices, to clearly explain that the Tele-
                                                              Typewriter/Telecommunications Device (TTY/TDD) number is for
                                                              hearing- and speech-impaired individuals.




                                                                April 1, 2012 – September 30, 2012                       69
                                                 TIGTA SEMIANNUAL REPORT TO CONGRESS



                                                  Projected         Report Title and Recommendation Summary
Reference           IRS              Issued      Completion    (F = Finding Number (No.), R = Recommendation No.,
 Number        Management                           Date                            P = Plan No.)
              Challenge Area

2010-40-121       Taxpayer          September                 Improvements Are Needed to Verify Refunds to Nonresident
                 Compliance           2010                    Aliens Before the Refunds Are Sent Out of the United States
                  Initiatives
                                                   12/15/12   F-1, R-3, P-1. Determine whether it would be feasible to require
                                                              payers issuing multiple Forms 1042-S, Foreign Person’s U.S.
                                                              Source Income Subject to Withholding, to issue a single summary
                                                              Form 1042-S at the end of the calendar year, to simplify reporting
                                                              for the United States business and third-party payer and decrease
                                                              taxpayer burden.
                                                   12/31/12   F-2, R-1, P-1. Use the Foreign Country Codes on Form 1040NR,
                                                              U.S. Nonresident Alien Income Tax Return, to ensure that the
                                                              correct tax rate has been applied.
                                                   01/15/13   F-3, R-2, P-1. Clarify instructions on what constitutes United
                                                              States source income in the United States Tax Guide for Aliens
                                                              (Publication 519) and Withholding of Tax on Nonresident Aliens
                                                              and Foreign Entities (Publication 515) in regard to income from
                                                              multi-level marketing companies.
2010-40-127       Taxpayer          September                 It Will Take Years to Implement the Return Preparer Program
                 Compliance           2010                    and to Realize Its Impact
                  Initiatives
                                                   04/15/13   F-1, R-2, P-1. Establish controls to ensure that Preparer Tax
                                                              Identification Number (PTIN) applicants with domestic addresses
                                                              are United States citizens or legal aliens, and the SSN of the
                                                              PTIN applicant is not the SSN of a deceased person.

2011-40-014   Taxpayer Protection    January                  The Income Verification Express Services Program Needs
                  and Rights          2011                    Improvements to Better Protect Tax Return Information

                                                   01/15/13   F-1, R-1, P-1. Develop and enforce minimum requirements for
                                                              the Income Verification Express Services (IVES) Program that
                                                              would help ensure participants are suitable to have a working
                                                              relationship with the IRS and receive taxpayer information from
                                                   01/15/13   the IVES Program.
                                                              F-1, R-3, P-1. Within one year of revising Form 13803, Income
                                                              Verification Express Services (IVES) Application, contact and
                                                              obtain a completed Form 13803 from all current IVES Program
                                                              participants.
2011-40-023     Erroneous and        February                 Reduction Targets and Strategies Have Not Been Established
              Improper Payments       2011                    to Prevent the Issuance of Billions of Dollars in Improper
                 and Credits                                  Earned Income Tax Credit Payments Each Year

                                                   09/15/13   F-1, R-1, P-1. Establish quantifiable reduction targets and
                                                              strategies to meet those targets.
                                                   09/15/13   F-2, R-1, P-1. Use the National Research Program sample to
                                                              estimate instances where the IRS incorrectly pays less in EITC
                                                              than the taxpayer claims (underpayments).

2011-30-020   Taxpayer Protection   March 2011                Taxpayer Payments Were Improperly Transferred to the
                  and Rights                                  Excess Collection File

                                                   01/15/13   F-2, R-1, P-1. Request programming changes to systemically
                                                              issue Letter 2765C when taxpayers submit payments after the
                                                              Assessment Statute Expiration Date in advance of an
                                                              examination adjustment or with an amended return.

2011-30-039     Human Capital       May 2011                  Challenges Remain to Balance Revenue Officer Staffing With
                                                              Attrition and Workload Demands

                                                   10/15/12   F-1, R-1, P-1. Establish rules for optimizing staffing levels for
                                                              Revenue Officers to address Collection’s potentially collectible
                                                              inventory.




   70         April 1, 2012 – September 30, 2012
               TIGTA SEMIANNUAL REPORT TO CONGRESS



                                                  Projected         Report Title and Recommendation Summary
Reference           IRS               Issued     Completion    (F = Finding Number (No.), R = Recommendation No.,
 Number        Management                           Date                            P = Plan No.)
              Challenge Area

2011-20-046   Security of the IRS    May 2011                 Access Controls for the Automated Insolvency System Need
                                                              Improvement

                                                   01/15/13   F-1, R-1, P-1. Identify incompatible duties and implement policies
                                                              to segregate those duties; issue a memorandum to program
                                                              managers requiring them to adhere to the new policy when
                                                              assigning duties and approving Automated Insolvency System
                                                              access privileges; and designate a limited number of employees
                                                              to perform the User Administrator duties.

2011-40-058    Providing Quality     July 2011                Taxpayers Do Not Always Receive Quality Responses When
               Taxpayer Service                               Corresponding About Tax Issues

                                                   01/15/13   F-1, R-3, P-1. Complete the study of the interim letters to ensure
                                                              that they: are strategically timed; alert taxpayers of delays and
                                                              provide taxpayers with an accurate status and time period for
                                                              case resolution; provide taxpayers with sufficient information to
                                                              deter them from using other channels to contact the IRS
                                                              regarding their case; and are clear and concise.

2011-10-107     Human Capital        September                The Administration of Recruitment and Retention Incentives
                                       2011                   Has Improved, but Additional Actions Should Be Taken

                                                   12/15/12   F-2, R-1, P-1. Develop a methodology to assess the impact of
                                                              the use of recruitment and retention incentives in helping IRS
                                                              management meet long-term workforce planning goals.

2011-20-111   Security of the IRS    September                Continued Centralization of the Windows Environment
                                       2011                   Would Improve Administration and Security Efficiencies

                                                   09/30/12   F-1, R-1, P-1. Establish an enterprise-wide Active Directory
                                                              governing body that finalizes and enforces IRS Activity Directory
                                                              forest design criteria, develops standards, oversees trusts, and
                                                              ensures that unauthorized forests or domains are not
                                                              implemented in the IRS.
                                                   11/01/12   F-1, R-2, P-1. Ensure that the planned shutdown of the Business
                                                              Systems Modernization forest is completed once the Systems,
                                                              Applications, and Products Secure Network Communications
                                                              solution is in place.
                                                   05/01/13   F-2, R-1, P-1. Ensure that standards and processes are
                                                              developed and implemented enterprise-wide to prevent servers
                                                              and workstations from being connected to the network without the
                                                              proper authorization and required compliance documentation.
                                                   10/02/12   F-2, R-2, P-1. Ensure that scanning tools are utilized to locate
                                                              unauthorized servers, workstations, and domains on the IRS
                                                              network, and that adequate procedures are developed and
                                                              implemented to ensure that they are removed.

2011-30-112        Taxpayer          September                Reducing the Processing Time Between Balance Due Notices
                  Compliance           2011                   Could Increase Collections
                   Initiatives
                                                   01/15/13   F-1, R-1, P-1. Consider reducing the time between each notice
                                                              by seven days.
                                                   01/15/13   F-2, R-1, P-1. Consider establishing a business rule to address
                                                              taxpayers with multiple balance due modules entering the notice
                                                              stream at the same time.
2011-20-127   Modernization of the   September                The Customer Account Data Engine 2 Program Management
                     IRS               2011                   Office Implemented Systems Development Guidelines;
                                                              However, Process Improvements Are Needed to Address
                                                              Inconsistencies

                                                   02/01/13   F-1, R-2, P-1. Ensure that the Internal Revenue Manual includes
                                                              detailed instructions on how to develop a Program-level test plan.




                                                                April 1, 2012 – September 30, 2012                     71
                                                     TIGTA SEMIANNUAL REPORT TO CONGRESS



                                                     Projected                Report Title and Recommendation Summary
Reference           IRS                Issued       Completion           (F = Finding Number (No.), R = Recommendation No.,
 Number        Management                              Date                                   P = Plan No.)
              Challenge Area

2012-10-006      Human Capital        November                          The Internal Revenue Service Diversity Demographics Compare
                                        2011                            Favorably With Other Federal Agencies’ Senior Executive
                                                                        Service Ranks

                                                       09/30/12         F-2, R-1, P-1. Consider partnering with Federal professional
                                                                        executive organizations to gain additional insight on diversity issues in
                                                                        the Federal executive community, identify mentoring practices, and
                                                                        use these partnerships as a tool to recruit executive applicants.
                                                       01/15/13         F-2, R-2, P-1. Consider ways to communicate to employees the
                                                                        existence of professional executive organizations that may assist
                                                                        employees in their self-development efforts toward higher level
                                                                        positions.

2012-40-010     Tax Compliance        December                          More Tax Return Preparers Are Filing Electronically, but
                   Initiatives          2011                            Better Controls Are Needed to Ensure That All Are
                                                                        Complying With the New Preparer Regulations

                                                       07/15/13         F-1, R-1, P-1. Monitor preparers’ compliance with the e-file
                                                                        mandate.

2012-30-011     Tax Compliance         January                          Opportunities Exist to Identify More Taxpayers Who Underreport
                   Initiatives          2012                            Retirement Income

                                                       02/15/13         F-1, R-1, P-1. Revise the Form 1099-R, Distributions From Pensions,
                                                                        Annuities, Retirement or Profit-Sharing Plans, IRAs, Insurance
                                                                        Contracts, etc., to clarify the meaning of the taxable amount not
                                                                        determined box, to reduce taxpayer confusion when payers are
                                                                        unable to calculate the taxable amount of the distribution.
                                                     P-1: 03/15/13      F-1, R-4, P-1, P-2, P-3. Convert the Simplified Method Worksheet
                                                   P-2, P-3: 12/15/13   to a tax form and require taxpayers to file it with their tax returns.
2012-20-019   Security for Taxpayer   March 2012                        The Computer Security Incident Response Center Is
              Data and Employees                                        Effectively Performing Most of Its Responsibilities, but
                                                                        Further Improvements Are Needed

                                                       12/31/12         F-1, R-1, P-1. Develop the Cybersecurity Data Warehouse
                                                                        capability to correlate and reconcile active servers connected to
                                                                        the IRS network with servers monitored by the Host-Based
                                                                        Intrusion Detection System.
                                                       12/31/12         F-2, R-1, P-1. Require TIGTA’s Office of Investigations to refer all
                                                                        reportable and relevant computer security incidents to the
                                                                        Computer Security Incident Response Center, except for those
                                                                        that cannot be shared due to privacy or legal concerns.
                                                       12/31/12         F-2, R-2, P-1. Develop and use common identifiers to facilitate
                                                                        the reconciliation of the Computer Security Incident Response
                                                                        Center’s incident tracking system to TIGTA’s Office of
                                                                        Investigations’ tracking system.
                                                       12/31/12         F-3, R-1, P-1. Develop a standalone incident response policy for
                                                                        currency and accuracy.
                                                       12/31/12         F-3, R-2, P-1. Develop a standalone incident plan that includes
                                                                        the elements recommended by the National Institute of Standards
                                                                        and Technology.
                                                       12/31/12         F-3, R-3, P-1. Develop, update, and formalize all critical standard
                                                                        operating procedure and, once completed, test these procedures
                                                                        to ensure completeness and accuracy.

2012-30-030     Tax Compliance        March 2012                        Actions Can Be Taken to Reinforce the Importance of
                   Initiatives                                          Recognizing and Investigating Fraud Indicators During Field
                                                                        Audits

                                                       04/15/13         F-1, R-2, P-1. Reinforce the importance of involving a Fraud
                                                                        Technical Advisor in audits when there are indicators of fraud.




   72         April 1, 2012 – September 30, 2012
        TIGTA SEMIANNUAL REPORT TO CONGRESS




                     Other Statistical Reports
         The Inspector General Act of 1978 requires Inspectors General
                             to address the following issues:

                        Issue                                       Result for TIGTA

Access to Information
Report unreasonable refusals of information            As of September 30, 2012, there were no
available to the agency that relate to programs and    instances where information or assistance
operations for which the Inspector General has         requested by the Office of Audit was refused.
responsibilities.

Disputed Audit Recommendations                         As of September 30, 2012, there was one
                                                       instance where significant recommendations
Provide information on significant management
                                                       were disputed: Using SmartID Cards to Access
decisions in response to audit recommendations with
                                                       Computer Systems Is Taking Longer Than
which the Inspector General disagrees.
                                                       Expected (Reference No. 2012-20-115)
Revised Management Decisions
Provide a description and explanation of the           As of September 30, 2012, no significant
reasons for any significant revised management         management decisions were revised.
decisions made during the reporting period.

Audit Reports Issued in the Prior Reporting
Period With No Management Response
Provide a summary of each audit report issued          As of September 30, 2012, there were no
before the beginning of the current reporting period   prior reports where management’s response
for which no management response has been              was not received.
received by the end of the current reporting period.

Review of Legislation and Regulations
Review existing and proposed legislation and           TIGTA’s Office of Chief Counsel reviewed
regulations, and make recommendations concerning       215 proposed regulations and legislative
the impact of such legislation or regulations.         requests during this reporting period.




                                                       April 1, 2012 – September 30, 2012         73
                                   TIGTA SEMIANNUAL REPORT TO CONGRESS




74   April 1, 2012 – September 30, 2012
        TIGTA SEMIANNUAL REPORT TO CONGRESS




                                  Appendix II
                         Audit Products
              April 1, 2012 – September 30, 2012
                                      Audit Products
Reference
 Number                                           Report Title
                April 2012
               Future Improvements Could Further Increase the Benefits of the Tuition Assistance
2012-10-043    Program (Inefficient Use of Resources: $105,889; Reliability of Information: Six
               inaccurate records in the Tuition Assistance Program database)
2012-1C-034    Adequacy of the Contractor’s Initial Disclosure Statement and Revision Number 1
2012-1C-035    Independent Audit of Contractor’s Pre-Award Accounting System
2012-1C-042    Incurred Cost Audit for Fiscal Year Ended September 28, 2007
2012-1C-047    Purchasing System Follow-Up
2012-1C-048    Inadequate Fiscal Year 2011 Incurred Cost Proposal
               Opportunities Exist to Reduce Lockbox Fingerprinting Costs (Funds Put to Better Use:
2012-10-040
               $200,418)
2012-10-044    No Fair Tax Collection Practices Violations Were Closed in Fiscal Year 2011
2012-30-045    Improved Oversight Is Needed to Effectively Process Whistleblower Claims
               Additional Steps Are Needed to Ensure the Volunteer Income Tax Assistance Grant
2012-40-049
               Program Reaches More Underserved Taxpayers
                May 2012
               Disaster Recovery Testing Is Being Adequately Performed, but Problem Reporting and
2012-20-041
               Tracking Can Be Improved
               Most Taxpayers Whose Identities Have Been Stolen to Commit Refund Fraud Do Not
2012-40-050    Receive Quality Customer Service (Taxpayer Burden: 838,095 taxpayer accounts
               impacted)
               The Exempt Organizations Function Should Take Action to Limit the Disclosure of
2012-10-046
               Social Security Numbers on Publicly Available Tax-Exempt Returns
               Oversight of Nonbank Trustees Has Improved, but Resources Expended on the
               Program Should Be Reevaluated (Reliability of Information: four entities either
2012-10-055
               erroneously appeared on or were erroneously absent from the IRS’s list of approved
               nonbank trustees)
               Customer Account Data Engine 2 Performance and Capacity Is Sufficient, but Actions
2012-20-051
               Are Needed to Improve Testing
               Problems Persist When Processing Undelivered Lien Notices and Notifying Taxpayers’
2012-30-057    Representatives (Taxpayer Rights and Entitlements: 43,821 taxpayer accounts
               impacted)
                June 2012
               Implementing Better Management Controls Would Improve the Exempt Organizations
               Function’s Ability to Properly Oversee and Timely Process Referrals (Reliability of
2012-10-058    Information: 350 referrals not controlled on the Exempt Organizations’ database and
               48 referrals contained on the Exempt Organizations’ database with inaccurate
               information)



                                                     April 1, 2012 – September 30, 2012            75
                                       TIGTA SEMIANNUAL REPORT TO CONGRESS



                The Taxpayer Advocate Service’s ASK-TAS1 Toll-Free Line Has Evolved Over Time,
 2012-10-052
                but Additional Steps Are Necessary to Evaluate Its Impact
                Enterprise-Level Oversight Is Needed to Ensure Adherence to Windows Server
 2012-20-063
                Security Policies
                Processes to Address Erroneous Adoption Credits Result in Increased Taxpayer
                Burden and Credits Allowed to Nonqualifying Individuals (Funds Put to Better Use:
 2012-40-065
                $11,003,043; Inefficient Use of Resources: $1,863,773; Taxpayer Rights and
                Entitlements: 333 taxpayer accounts impacted)
                Affordable Care Act: Planning Efforts for the Tax Provisions of the Patient Protection
 2012-43-064    and Affordable Care Act Appear Adequate; However, the Resource Estimation
                Process Needs Improvement
                Despite Some Favorable Partnership Audit Trends, the Number of No-Change Audits
 2012-30-060
                Is a Concern
                Fiscal Year 2012 Statutory Audit of Compliance With Legal Guidelines Prohibiting the
 2012-30-066    Use of Illegal Tax Protester and Similar Designations (Taxpayer Rights and
                Entitlements: 16 taxpayer accounts impacted)
                The Recommended Adjustments From S Corporation Audits Are Substantial, but the
 2012-30-062
                Number of No-Change Audits Is a Concern
                Affordable Care Act: While Much Has Been Accomplished, the Extent of Additional
 2012-13-070
                Controls Needed to Implement Tax-Exempt Hospital Provisions Is Uncertain
 2012-1C-053    Contractor’s Fiscal Year 2005 Incurred Cost Proposal
 2012-1C-054    Contractor’s Fiscal Years 2004 Through 2008 Inadequate Cost Impact Proposal
 2012-1C-059    Contractor’s Fiscal Year 2006 Incurred Cost Proposal Deficiency
 2012-1C-061    Fiscal Year 2012 Labor Floor Checks for Civil Group
                Implementation of the Return Preparer Visitation Project Was Successful, but
 2012-30-068
                Improvements Are Needed to Increase Its Effectiveness
 2012-40-071    Insufficient E-Services Controls May Put Taxpayer Information at Risk
                Fiscal Year 2012 Review of Compliance With Legal Guidelines When Conducting
 2012-30-072    Seizures of Taxpayers’ Property (Taxpayer Rights and Entitlements: 9 taxpayer
                accounts impacted)
                 July 2012
                Better Information Is Needed to Assess Ongoing Efforts to Expand Self-Assistance
 2012-40-073
                and Virtual Services to Taxpayers
                Accounting for the Austin Incident (Reliability of Information: $13,493 in incorrectly
 2012-10-074
                coded expenditures)
                Substantial Changes Are Needed to the Individual Taxpayer Identification Number
 2012-42-081
                Program to Detect Fraudulent Applications
                The Remediation Plan Still Does Not Contain All the Necessary Actions to Address the
 2012-10-069
                Unpaid Assessments Material Weakness
                There Are Billions of Dollars in Undetected Tax Refund Fraud Resulting From Identity
 2012-42-080    Theft (Funds Put to Better Use: $20,797,046,368; Taxpayer Privacy and Security:
                1,492,215 taxpayer accounts impacted)
                Fiscal Year 2012 Statutory Review of Disclosure of Collection Activity With Respect to
 2012-30-084
                Joint Returns
                The Full Costs of Work Performed on Reimbursable Agreements Are Not Always
 2012-10-076    Charged, Resulting in Reduced Funds Available for Tax Administration (Increased
                Revenue: $28,001,070)
                The Internal Revenue Service Is Making Progress Toward Implementing Daily
 2012-40-085
                Processing of Individual Tax Returns
                An Independent Risk Assessment of Facility Physical Security Was Not Performed in
 2012-10-075
                Compliance With Contract Requirements (Inefficient Use of Resources: $1,236,638)
                Office of Appeals Errors in the Handling of Collection Due Process Cases Continue to
 2012-10-077
                Exist (Increased Revenue: 1,772 taxpayer accounts impacted; Taxpayer Rights and




76      April 1, 2012 – September 30, 2012
        TIGTA SEMIANNUAL REPORT TO CONGRESS



              Entitlements: 14,184 taxpayer accounts impacted)
              The Collection Function Develops Quality Fraud Referrals but Can Improve the
2012-30-083
              Identification and Development of Additional Fraud Cases
              Ensuring the Quality Review Process Is Consistently Followed Remains a Problem for
2012-40-088
              the Volunteer Program
              August 2012
              Statistical Portrayal of the Tax Exempt Bonds Office’s Enforcement Activities Fiscal
2012-10-087   Year 2005 Through Fiscal Year 2010 (Reliability of Information: 50 penalty
              investigations for which time was not tracked)
              The Onboarding Process Has Improved, but Additional Steps Should Be Taken to
2012-10-091   Ensure Employees Have the Tools, Resources, and Knowledge to Be Successful and
              Productive
              Initial Disclosure Statement and Revision 1 for Adequacy With Cost Accounting
2012-1C-078
              Standards
              Fiscal Year 2011 Compliance With Requirements of Office of Management and
2012-1C-079   Budget Circular A-133 Applicable to Research and Development (Questioned Costs:
              $1,477,659)
2012-1C-082   Billing System Limited Scope Audit
              Fiscal Year 2012 Statutory Audit of Compliance With Legal Guidelines Restricting the
2012-30-090
              Use of Records of Tax Enforcement Results
              The End-User Equipment and Services Organization Successfully Planned Its
2012-20-086
              Reorganization; However, Program Measures and Efficiencies Can Be Improved
              Business Taxpayers Were Effectively Transitioned to Electronic Payments; However,
2012-30-092   They Were Not Always Timely Contacted When Payments Were Missed (Taxpayer
              Burden: 5,815 taxpayer accounts impacted)
              Improved Toll-Free Telephone Services Should Make It Easier for Taxpayers to Obtain
2012-30-093   Assistance During a Correspondence Audit (Taxpayer Burden: 35,591 telephone calls
              that will not be returned)
              Fiscal Year 2012 Statutory Review of Compliance With Legal Guidelines When Issuing
2012-30-095
              Levies
              Fiscal Year 2012 Statutory Review of Compliance With the Freedom of Information Act
              (Taxpayer Rights and Entitlements: 95 responses to Freedom of Information Act or
2012-30-098   Privacy Act requests for which information may have been improperly withheld and 48
              responses to Freedom of Information Act or Privacy Act requests that may not have
              been processed within statutory time periods)
              Procedures for Withdrawals and Releases of Notices of Federal Tax Lien Were Not
2012-30-096   Always Followed (Taxpayer Burden: 485 taxpayer accounts impacted; Taxpayer
              Rights and Entitlements: 13,547 taxpayer accounts impacted)
              Additional Controls Are Necessary When Processing Employees’ Amended Tax
2012-40-103
              Returns
              Significant Additional Real Estate Cost Savings Can Be Achieved by Implementing a
2012-10-100
              Telework Workstation Sharing Strategy (Funds Put to Better Use: $111,404,345)
              September 2012
              Fiscal Year 2012 Statutory Review of Restrictions on Directly Contacting Taxpayers
2012-30-089
              (Taxpayer Rights and Entitlements: 4,845 taxpayer accounts impacted)
              Fiscal Year 2012 Statutory Audit of Compliance With Notifying Taxpayers of Their
2012-30-102   Rights When Requested to Extend the Assessment Statute (Taxpayer Rights and
              Entitlements: 706 taxpayer accounts impacted)
              A Concerted Effort Should Be Taken to Improve Federal Government Agency Tax
2012-30-094   Compliance (Increased Revenue: $2,400,000; Taxpayer Rights and Entitlements: 25
              taxpayer accounts impacted; Taxpayer Burden: 17 taxpayer accounts impacted)
              Criminal Investigation’s Firearms Training and Qualification Policies Need to Be
2012-30-104
              Clarified




                                                    April 1, 2012 – September 30, 2012         77
                                       TIGTA SEMIANNUAL REPORT TO CONGRESS



                Actions Are Needed to Ensure Audit Results Post Timely and Accurately to Taxpayer
 2012-30-097
                Accounts (Increased Revenue: $719,779)
                Expansion of Controls Over Refundable Credits Could Help Reduce the Billions of
 2012-40-105
                Dollars of Improperly Paid Claims (Funds Put to Better Use: $527,738,058)
                The Process for Individuals to Report Suspected Tax Law Violations Is Not Efficient or
 2012-40-106    Effective (Inefficient Use of Resources: $3,800,000; Taxpayer Burden: 581,535
                taxpayer accounts impacted)
                Control Weaknesses Could Allow Taxpayers’ Delinquent Accounts to Be
 2012-40-108    Inappropriately Closed As Currently Not Collectible (Increased Revenue:
                $115,725,586; Taxpayer Burden: 1,889 taxpayer accounts impacted)
                Collection Field Function Procedures Were Not Always Followed When Assessing
 2012-30-110    Taxes on Businesses That Have Not Filed Tax Returns (Taxpayer Rights and
                Entitlements: 1,536 taxpayer accounts impacted)
                Delays In Processing Net Operating Loss Cases Resulted in Millions of Dollars in
 2012-40-111    Unnecessary Interest Payments (Funds Put to Better Use: $333,669,984; Taxpayer
                Burden: 74,360 taxpayer accounts impacted)
                Deficiencies Continue to Exist in Verifying Contractor Labor Charges Prior to Payment
 2012-11-101
                (Questioned Costs: $927,992)
                Penalty Abatement Procedures Should Be Applied Consistently to All Taxpayers and
 2012-40-113    Should Encourage Voluntary Compliance (Taxpayer Rights and Entitlements:
                $181,547,944 and 1,514,757 taxpayer accounts impacted)
                While Use of the Modernized e-File System for Individual Tax Returns Has Increased,
 2012-40-116    the Legacy e-File System Is Still Needed As a Backup (Revenue Protection:
                $11,792,063)
                Audit Trails Did Not Comply With Standards or Fully Support Investigations of
 2012-20-099
                Unauthorized Disclosure of Taxpayer Data
                The Information Technology Organization Needs to Implement a Competency
 2012-20-107
                Database to Efficiently Manage Its Workforce
                An Enterprise Approach Is Needed to Address the Security Risk of Unpatched
 2012-20-112
                Computers
 2012-40-117    The Estimated Tax Penalty Is Not Administered Equitably
                Processes for the Direct Deposit of Tax Refunds Need Improvement to Increase
 2012-40-118
                Accuracy and Minimize Fraud
                The Majority of Individual Tax Returns Were Processed Timely, but Not All Tax Credits
                Were Processed Correctly During the 2012 Filing Season (Funds Put to Better Use:
 2012-40-119    $159,031,326; Revenue Protection: $48,482,716 and 137,109 taxpayer accounts
                impacted; Increased Revenue: $2,016,843 and 379 taxpayer accounts impacted;
                Taxpayer Rights and Entitlements: $940,524 and 1,217 taxpayer accounts impacted)
                The Customer Account Data Engine 2 Database Was Initialized; However, Database
 2012-20-109    and Security Risks Remain, and Initial Timeframes to Provide Data to Three
                Downstream Systems May Not Be Met
                Despite Steps Taken to Increase Electronic Returns, Unresolved Modernized e-File
 2012-20-121    System Risks Will Delay the Retirement of the Legacy e-File System and
                Implementation of Business Forms
                Treasury Inspector General for Tax Administration – Federal Information Security
 2012-20-114
                Management Act Report for Fiscal Year 2012
 2012-20-115    Using SmartID Cards to Access Computer Systems Is Taking Longer Than Expected

 2012-20-120    Annual Assessment of the Internal Revenue Service Information Technology Program
                Customer Account Data Engine 2 (CADE2): System Requirements and Testing
 2012-20-122
                Processes Need Improvements




78      April 1, 2012 – September 30, 2012
           TIGTA SEMIANNUAL REPORT TO CONGRESS




                                         Appendix III
      TIGTA’s Statutory Reporting Requirements
TIGTA issued 15 audit reports required by statute dealing with the adequacy and security
of IRS technology during this reporting period. In FY 2012, TIGTA completed its 14th round
of statutory reviews that are required annually by the IRS Restructuring and Reform Act of
1998 (RRA 98). It also completed its annual reviews of the Federal Financial Management
Improvement Act (FFMIA) of 1996, the Office of National Drug Control Policy (ONDCP)
Detailed Accounting Submission and Assertions, and the Improper Payments Elimination
and Recovery Act of 2010 (IPERA). The following table reflects the FY 2012 statutory
reviews.


       Reference to                   Explanation of the                Comments/TIGTA Audit
    Statutory Coverage                    Provision                           Status

   Enforcement Statistics           Requires TIGTA to evaluate the   Ref. No: 2012-30-090, August 2012
                                    IRS’s compliance with            The IRS achieved full compliance with
   Internal Revenue Code (I.R.C.)   restrictions under RRA 98 §      RRA 98 § 1204(a) requirements.
   Section (§) 7803(d)(1)(A)(i)     1204 on the use of enforcement   However, TIGTA’s review found that
                                    statistics to evaluate IRS       managers had not included records of
                                    employees.                       tax enforcement results (ROTER) in
                                                                     performance evaluation documents for
                                                                     the 145 employees reviewed.

                                                                     The IRS also achieved full compliance
                                                                     with RRA 98 § 1204(b) and (c)
                                                                     requirements. The IRS evaluated all
                                                                     employees on the fair and equitable
                                                                     treatment of taxpayers and prepared
                                                                     quarterly self-certifications showing that
                                                                     ROTERs were not used to evaluate
                                                                     employees.

                                                                     In FY 2011, the IRS launched mandatory
                                                                     RRA 98 § 1204 training for managers
                                                                     and employees. TIGTA selected a
                                                                     judgmental sample of 15 employees and
                                                                     found a high percentage of employees
                                                                     that understood the term “retention
                                                                     standard.” However, 13 percent were
                                                                     not sure if they had attended retention
                                                                     standard training.




                                                               April 1, 2012 – September 30, 2012                 79
                                             TIGTA SEMIANNUAL REPORT TO CONGRESS




         Reference to                Explanation of the                   Comments/TIGTA Audit
      Statutory Coverage                 Provision                              Status

     Restrictions on Directly     Requires TIGTA to evaluate the       Ref. No: 2012-30-089, September 2012
     Contacting Taxpayers         IRS’s compliance with restrictions   The IRS has a number of policies and
                                  under I.R.C. § 7521 on directly      procedures in place to help ensure that
     I.R.C. § 7803(d)(1)(A)(ii)   contacting taxpayers who have        taxpayers are afforded the right to
                                  indicated they prefer their          designate a qualified representative to
                                  representatives be contacted.        act on their behalf in dealing with IRS
                                                                       personnel in a variety of tax matters.
                                                                       However, TIGTA reviewed a statistical
                                                                       sample of 73 of 25,264 IRS Small
                                                                       Business/Self-Employed Division’s
                                                                       closed field collection investigations and
                                                                       found that revenue officers were not
                                                                       always involving representatives
                                                                       appropriately in some key actions.
                                                                       In the sample of 73 cases, TIGTA found
                                                                       that 14 revenue officers deviated from
                                                                       procedures by: 1) contacting the
                                                                       taxpayer directly, instead of the
                                                                       authorized representative, on the initial
                                                                       or subsequent contact in the collection
                                                                       investigation; 2) not sending copies of
                                                                       taxpayer correspondence to the
                                                                       authorized representative; or 3) not
                                                                       allowing enough time for the taxpayer to
                                                                       obtain a representative. In addition, little
                                                                       documentation was found in managerial
                                                                       reviews indicating that managers
                                                                       checked to ensure revenue officers were:
                                                                       1) involving representatives in all case
                                                                       actions; 2) providing representatives a
                                                                       copy of all original correspondence sent
                                                                       to taxpayers; and 3) allowing taxpayers
                                                                       sufficient time to obtain representation.
                                                                       Although none of the taxpayers in the 14
                                                                       cases formally complained to the IRS or
                                                                       to TIGTA, the deviations can negatively
                                                                       affect the ability of taxpayers to obtain
                                                                       appropriate and effective representation
                                                                       during collection investigations.

                                                                       Moreover, the deviations can increase
                                                                       the risk of taxpayers seeking monetary
                                                                       damages from the IRS if its personnel
                                                                       are intentionally disregarding the direct
                                                                       contact provisions of the I.R.C.




80           April 1, 2012 – September 30, 2012
         TIGTA SEMIANNUAL REPORT TO CONGRESS




    Reference to                 Explanation of the                     Comments/TIGTA Audit
 Statutory Coverage                  Provision                                Status

Filing of a Notice of Lien    Requires TIGTA to evaluate the         Ref. No: 2012-30-057, May 2012
                              IRS’s compliance with required         TIGTA reviewed a statistically valid
I.R.C. § 7803(d)(1)(A)(iii)   procedures under I.R.C. § 6320         sample of 105 Notices of Federal Tax
                              upon the filing of a notice of lien.   Lien (NFTL) filed for the 12-month period
                                                                     ending June 30, 2011, and determined
                                                                     that the IRS mailed taxpayers lien
                                                                     notices in a timely manner as required.
                                                                     However, the IRS did not always follow
                                                                     its own regulations for notifying
                                                                     representatives of the filing of NFTLs.
                                                                     IRS regulations require taxpayer
                                                                     representatives be given copies of all
                                                                     NFTLs issued to taxpayers. For four (18
                                                                     percent) of 22 sample cases for which
                                                                     the taxpayer had an authorized
                                                                     representative, the IRS did not notify the
                                                                     taxpayer’s representative of the NFTL.
                                                                     TIGTA estimated that 43,817 taxpayers
                                                                     may have been adversely affected
                                                                     because the IRS did not follow
                                                                     requirements to notify the taxpayers’
                                                                     representatives of the taxpayers’ rights
                                                                     related to liens.

                                                                     Additionally, when an initial lien notice is
                                                                     returned undelivered and a different
                                                                     address is available for the taxpayer, the
                                                                     IRS does not always meet its statutory
                                                                     requirement to send the lien notice to the
                                                                     taxpayer’s last known address. From a
                                                                     judgmental sample of 250 undelivered
                                                                     lien notices, TIGTA identified four cases
                                                                     for which a new lien notice should have
                                                                     been sent to the taxpayer’s updated
                                                                     address because IRS systems reflected
                                                                     the updated address prior to the lien
                                                                     preparation. These cases could involve
                                                                     legal violations because the IRS did not
                                                                     meet its statutory requirement to send
                                                                     lien notices to the taxpayer’s last known
                                                                     address.




                                                              April 1, 2012 – September 30, 2012                    81
                                            TIGTA SEMIANNUAL REPORT TO CONGRESS




         Reference to                Explanation of the                  Comments/TIGTA Audit
      Statutory Coverage                 Provision                             Status

     Extensions of the Statute    Requires TIGTA to include           Ref. No: 2012-30-102, September 2012
     of Limitations for           information regarding               TIGTA’s review of a statistical sample of
     Assessment of Tax            extensions of the statute of        115 closed taxpayer audit files with
                                  limitations for assessment of tax   extensions of the statute of limitations
     I.R.C. § 7803(d)(1)(C)       under I.R.C. § 6501 and the         found that the IRS is compliant with
                                  provision of notice to taxpayers    I.R.C. § 6501(c)(4)(B). However, four of
     I.R.C. § 6501(c)(4)(B)       regarding the right to refuse or    the taxpayer audit files did not contain
                                  limit the extension to particular   documentation to indicate whether
                                  issues or a particular period of    taxpayers were directly advised of their
                                  time.                               rights before consenting to extend the
                                                                      time to assess tax. In each of the four
                                                                      instances, the taxpayer’s representative
                                                                      signed Form 872, Consent to Extend the
                                                                      Time to Assess Tax, and was notified of
                                                                      taxpayer rights regarding extending the
                                                                      assessment statute of limitations.
                                                                      Although notification to the taxpayers’
                                                                      representatives appears to meet the
                                                                      intent of the law, the IRS’s internal
                                                                      procedures require notification to be
                                                                      provided to both the taxpayer and the
                                                                      representative.

                                                                      In addition, TIGTA’s review found
                                                                      instances in which there was no
                                                                      documentation to support that the IRS
                                                                      complied with IRS procedures related to
                                                                      notifying taxpayers’ representatives
                                                                      when an authorization for third-party
                                                                      representation existed. TIGTA’s review
                                                                      included 100 taxpayer audit files that had
                                                                      authorizations for third-party
                                                                      representation and found that three of
                                                                      the taxpayer audit files did not contain
                                                                      documentation that the taxpayers’
                                                                      representatives were provided with the
                                                                      required notifications.




82           April 1, 2012 – September 30, 2012
         TIGTA SEMIANNUAL REPORT TO CONGRESS




    Reference to                    Explanation of the                 Comments/TIGTA Audit
 Statutory Coverage                     Provision                            Status

Levies                            Requires TIGTA to evaluate the    Ref. No: 2012-30-095, August 2012
                                  IRS’s compliance with required    The IRS is protecting taxpayers’ rights
I.R.C. § 7803(d)(1)(A)(iv)        procedures under I.R.C. § 6330    when issuing systemically generated and
                                  regarding levies.                 manually prepared levies. TIGTA
                                                                    reviewed 30 systemically generated
                                                                    levies identified through the Automated
                                                                    Collection System and the Integrated
                                                                    Collection System and determined that
                                                                    systemic controls were effective to
                                                                    ensure taxpayers were given notice of
                                                                    their appeal rights at least 30 calendar
                                                                    days prior to the issuance of the levies.
                                                                    In addition, TIGTA identified and
                                                                    reviewed 59 manual levies issued by IRS
                                                                    employees on those same systems and
                                                                    determined that all taxpayers were given
                                                                    notice of their appeal rights at least 30
                                                                    calendar days prior to issuance of the
                                                                    levies.

Collection Due Process            Requires TIGTA to evaluate the    Ref. No: 2012-10-077, July 2012
                                  IRS’s compliance with required    TIGTA’s review continued to identify the
I.R.C. § 7803(d)(1)(A)(iii) and   procedures under I.R.C. §§ 6320   same deficiencies in the IRS’s
(iv)                              and 6330 regarding taxpayers’     processing of Collection Due Process
                                  rights to appeal lien or levy     cases. Specifically, TIGTA identified that
                                  actions.                          the IRS’s Office of Appeals did not
                                                                    always classify taxpayer requests
                                                                    properly and, as a result, some
                                                                    taxpayers received the wrong type of
                                                                    hearing. TIGTA also identified an
                                                                    increase in errors relating to the
                                                                    determination of the Collection Statute
                                                                    Expiration Date on taxpayer accounts,
                                                                    compared to that identified during prior
                                                                    audits. In addition, TIGTA found that
                                                                    Appeals personnel continue to not
                                                                    always document their impartiality as
                                                                    required.




                                                              April 1, 2012 – September 30, 2012                 83
                                            TIGTA SEMIANNUAL REPORT TO CONGRESS




         Reference to                Explanation of the                Comments/TIGTA Audit
      Statutory Coverage                 Provision                           Status

     Seizures                     Requires TIGTA to evaluate the    Ref. No: 2012-30-072, June 2012
                                  IRS’s compliance with required    TIGTA reviewed a random sample of
     I.R.C. § 7803(d)(1)(A)(iv)   procedures under I.R.C. §§ 6330   50 of the 747 seizures conducted from
                                  through 6344 when conducting      July 1, 2010 through June 30, 2011, to
                                  seizures.                         determine whether the IRS is complying
                                                                    with legal and internal guidelines when
                                                                    conducting each seizure. In the majority
                                                                    of seizures the IRS followed all
                                                                    guidelines, and TIGTA did not identify
                                                                    any instances in which the taxpayers
                                                                    were adversely affected.

                                                                    However, in 11 seizures TIGTA identified
                                                                    14 instances in which the IRS did not
                                                                    comply with a particular I.R.C.
                                                                    requirement. Specifically, TIGTA found:

                                                                        •    The sale of the seized property
                                                                             was not properly advertised
                                                                             (I.R.C. § 6335(b)).
                                                                        •    The amount of the liability for
                                                                             which the seizure was made
                                                                             was not correct on the notice of
                                                                             seizure provided to the taxpayer
                                                                             (I.R.C. § 6335(a)).
                                                                        •    Proceeds resulting from the
                                                                             seizure were not properly
                                                                             applied to the taxpayer’s
                                                                             account (I.R.C. § 6342(a)).
                                                                        •    Information relating to the sale
                                                                             of the seized property was
                                                                             either incorrect or not provided
                                                                             to the taxpayer (I.R.C. §
                                                                             6340(c)).

                                                                    When legal and internal guidelines are
                                                                    not followed, it could result in the abuse
                                                                    of taxpayers’ rights.


     Taxpayer Designations –      An evaluation of the IRS’s        Ref. No: 2012-30-066, June 2012
     Illegal Tax Protester        compliance with restrictions      The IRS has not reintroduced past Illegal
     Designation and Nonfiler     under RRA 98 § 3707 on            Tax Protester codes or similar
     Designation                  designation of taxpayers.         designations on taxpayer accounts.
                                                                    However, TIGTA found that out of
     I.R.C. § 7803(d)(1)(A)(v)                                      approximately 4.2 million records and
                                                                    cases, there were 16 instances in which
                                                                    16 employees had referred to taxpayers
                                                                    as “Tax Protester,” “Constitutionally
                                                                    Challenged,” or other similar
                                                                    designations in case narratives on the
                                                                    computer systems analyzed.




84           April 1, 2012 – September 30, 2012
         TIGTA SEMIANNUAL REPORT TO CONGRESS




    Reference to                   Explanation of the                      Comments/TIGTA Audit
 Statutory Coverage                    Provision                                 Status

Disclosure of Collection        Requires TIGTA to review and            Ref. No: 2012-30-084, July 2012
Activities With Respect to      certify whether the IRS is              IRS procedures provide employees with
Joint Returns                   complying with the requirement of       sufficient guidance for handling joint filer
                                I.R.C. § 6103(e) (8) to disclose        collection activity information requests.
I.R.C. § 7803(d)(1)(B)          information to an individual filing a   However, TIGTA could not determine
                                joint return on collection activity     whether the IRS fully complied with
I.R.C. § 6103(e)(8)             involving the other individual filing   I.R.C. § 6103(e)(8) requirements when
                                the return.                             responding to written collection activity
                                                                        information requests from joint filers. IRS
                                                                        management information systems do not
                                                                        separately record or monitor joint filer
                                                                        requests, and there is no legal
                                                                        requirement for the IRS to do so. Further,
                                                                        TIGTA does not recommend the creation
                                                                        of a separate tracking system.

Taxpayer Complaints             Requires TIGTA to include in            Statistical results on the number of
                                each of its Semiannual Reports to       taxpayer complaints received are shown
I.R.C. § 7803(d)(2)(A)          Congress the number of taxpayer         on page 65.
                                complaints received and the
                                number of employee misconduct
                                and taxpayer abuse allegations
                                received by IRS or TIGTA from
                                taxpayers, IRS employees, and
                                other sources.




Administrative or Civil         Requires TIGTA to include               Ref. No: 2012-10-044, April 2012
Actions With Respect to the     information regarding any               The IRS did not close any cases in FY
Fair Tax Collection Practices   administrative or civil actions with    2011 that it classified as Fair Tax
Act of 1996                     respect to violations of the fair       Collection Practice violations. In
                                debt collection provision of I.R.C.     addition, there were no civil actions
I.R.C. § 7803(d)(1)(G)          § 6304, including a summary of          resulting in monetary actions for
                                such actions, and any resulting         damages to taxpayers because of a Fair
I.R.C. § 6304                   judgments or awards granted.            Tax Collection Practice violation.
                                                                        However, TIGTA identified one case that
RRA 98 § 3466                                                           should have been coded and worked as
                                                                        a potential Fair Tax Collection Practice
                                                                        violation. TIGTA determined the case
                                                                        was not considered as a potential Fair
                                                                        Tax Collection Practice violation because
                                                                        guidance describing Fair Tax Collection
                                                                        Practice violations did not adequately
                                                                        define the allegation in this case as a
                                                                        potential violation.




                                                                 April 1, 2012 – September 30, 2012                    85
                                             TIGTA SEMIANNUAL REPORT TO CONGRESS




         Reference to                Explanation of the                    Comments/TIGTA Audit
      Statutory Coverage                 Provision                               Status

     Denial of Requests for       Requires TIGTA to include             Ref. No: 2012-30-098, August 2012
     Information                  information regarding improper        TIGTA reviewed a statistically valid
                                  denial of requests for information    sample of 60 Freedom of Information
     I.R.C. § 7803(d)(1)(F)       from the IRS, based on a              Act/Privacy Act cases and found
                                  statistically valid sample of the     3.3 percent in which taxpayer rights may
     I.R.C. § 7803(d)(3)(A)       total number of determinations        have been violated because the IRS
                                  made by the IRS to deny written       improperly withheld information from
                                  requests to disclose information      requestors. TIGTA also found that the
                                  to taxpayers on the basis of I.R.C.   IRS properly adhered to the legal
                                  § 6103 or 5 U.S.C. § 552(b)(7).       requirements under I.R.C. § 6103 in the
                                                                        sample of 60 requests reviewed. In
                                                                        addition, the results of TIGTA’s last three
                                                                        audits in FYs 2010 through 2012 found
                                                                        that the IRS has remained relatively
                                                                        consistent in providing responses to
                                                                        requestors within the statutory time
                                                                        periods.


     Adequacy and Security of     Requires TIGTA to evaluate the        Information Technology Reviews:
     the Technology of the IRS    IRS’s adequacy and security of        Ref. No. 2012-20-029, March 2012
                                  its technology.                       Ref. No. 2012-20-041, May 2012
     I.R.C. § 7803(d)(1)(D)                                             Ref. No. 2012-20-051, May 2012
                                                                        Ref. No. 2012-20-086, August 2012
                                                                        Ref. No. 2012-20-107, September 2012
                                                                        Ref. No. 2012-20-109, September 2012
                                                                        Ref. No. 2012-20-120, September 2012
                                                                        Ref. No. 2012-20-121, September 2012
                                                                        Ref. No. 2012-20-122, September 2012

                                                                        Security Reviews:
                                                                        Ref. No. 2012-20-019, March 2012
                                                                        Ref. No. 2012-20-063, June 2012 (SBU)
                                                                        Ref. No. 2012-20-099, September 2012
                                                                        Ref. No. 2012-20-112, September 2012
                                                                        Ref. No. 2012-20-114, September 2012
                                                                        Ref. No. 2012-20-115, September 2012




86           April 1, 2012 – September 30, 2012
         TIGTA SEMIANNUAL REPORT TO CONGRESS




    Reference to                      Explanation of the                 Comments/TIGTA Audit
 Statutory Coverage                       Provision                            Status

Federal Financial                  Requires TIGTA to evaluate the     Ref. No: 2012-10-069, July 2012
Management Improvement             financial management systems to    The IRS continues to face challenges in
Act of 1996 (FFMIA)                ensure compliance with Federal     becoming compliant with the FFMIA.
                                   requirements or the                TIGTA’s review of the IRS’s
31 U.S.C. § 3512                   establishment of a remediation     September 30, 2011, FFMIA remediation
                                   plan with resources, remedies,     plan identified that the plan continues to
                                   and intermediate target dates to   provide specific remediation actions to
                                   bring the IRS into substantial     address the material weakness related
                                   compliance.                        to information security. However, as
                                                                      previously reported, the IRS continues to
                                                                      not fully include costs and remediation
                                                                      actions that will address the material
                                                                      weaknesses relating to unpaid
                                                                      assessments. TIGTA found that this
                                                                      year’s remediation plan does not include
                                                                      any specific details relating to the
                                                                      Customer Account Data Engine 2
                                                                      (CADE 2). Since the CADE 2 is a key
                                                                      piece of the IRS’s strategy to address its
                                                                      material weakness related to unpaid
                                                                      assessments, TIGTA continues to
                                                                      believe this information should be
                                                                      included in the remediation plan.


Office of National Drug            Requires TIGTA to authenticate     Ref. No: 2012-10-018, January 2012
Control Policy (ONDCP)             the IRS’s ONDCP detailed           Nothing came to TIGTA’s attention that
Detailed Accounting                accounting submission and          caused TIGTA to believe that the
Submission and Assertions          assertions.                        assertions in the Detailed Accounting
                                                                      Submission and Performance Summary
National Drug Enforcement                                             Report were not appropriately presented
Policy 21 U.S.C. § 1704(d) and                                        in all material aspects in accordance with
the Office of National Drug                                           ONDCP-established criteria. The IRS
Control Policy Circular entitled                                      reported that it expended $66.5 million
Drug Control Accounting, dated                                        on ONDCP-related activities and
May 1, 2007.                                                          completed 927 ONDCP-related
                                                                      investigations in FY 2011. The IRS also
                                                                      reported that it participated in 435
                                                                      ONDCP-related cases that resulted in
                                                                      convictions, which represented an 88.1
                                                                      percent conviction rate.




                                                               April 1, 2012 – September 30, 2012                  87
                                           TIGTA SEMIANNUAL REPORT TO CONGRESS




         Reference to               Explanation of the               Comments/TIGTA Audit
      Statutory Coverage                Provision                          Status

     Improper Payments           Requires TIGTA to assess the     Ref. No: 2012-40-028, March 2012
     Elimination and Recovery    IRS’s compliance with improper   The methodology the IRS uses to estimate
     Act of 2010 (IPERA)         payment requirements.            the Earned Income Tax Credit (EITC)
                                                                  improper payment rate results in a
     31 U.S.C. § 3321                                             reasonable estimate of EITC overclaims.
                                                                  However, the IRS did not comply with all of
                                                                  the improper payment requirements
                                                                  included in the IPERA.

                                                                  The IRS has not established annual
                                                                  EITC improper payment reduction
                                                                  targets and has not computed a gross
                                                                  estimate of EITC improper payments, as
                                                                  the estimate does not include
                                                                  underpayments. An underpayment
                                                                  results when an EITC payment is made
                                                                  in an amount less than what an individual
                                                                  is entitled to receive.
                                                                  The IRS has plans in place to establish
                                                                  EITC reduction targets and is exploring
                                                                  the feasibility of computing an improper
                                                                  payment estimate for EITC
                                                                  underpayments.




88          April 1, 2012 – September 30, 2012
          TIGTA SEMIANNUAL REPORT TO CONGRESS




                                    Appendix IV
                         Section 1203 Standards
In general, the Commissioner of Internal Revenue shall terminate the employment of any IRS
employee if there is a final administrative or judicial determination that, in the performance of
official duties, such employee committed any misconduct violations outlined below. Such
termination shall be a removal for cause on charges of misconduct.

Misconduct violations include:

   •   Willfully failing to obtain the required approval signatures on documents authorizing the
       seizure of a taxpayer’s home, personal belongings, or business assets;
   •   Providing a false statement under oath with respect to a material matter involving a
       taxpayer or taxpayer representative;
   •   Violating, with respect to a taxpayer, taxpayer representative, or other employee of the
       IRS, any right under the Constitution of the United States, or any civil right established
       under Title VI or VII of the Civil Rights Act of 1964; Title IX of the Education
       Amendments of 1972; Age Discrimination in Employment Act of 1967; Age
       Discrimination Act of 1975; Section 501 or 504 of the Rehabilitation Act of 1973; or Title I
       of the Americans with Disabilities Act of 1990;
   •   Falsifying or destroying documents to conceal mistakes made by any employee with
       respect to a matter involving a taxpayer or taxpayer representative;
   •   Committing assault or battery on a taxpayer, taxpayer representative, or other employee
       of the IRS, but only if there is a criminal conviction or a final judgment by a court in a civil
       case, with respect to the assault or battery;
   •   Violating the Internal Revenue Code of 1986, as amended (the Code), the Department
       of the Treasury regulations, or policies of the IRS (including the Internal Revenue
       Manual) for the purpose of retaliating against or harassing a taxpayer, taxpayer
       representative, or other employee of the IRS;
   •   Willfully misusing provisions of § 6103 of the Code for the purpose of concealing
       information from a congressional inquiry;
   •   Willfully failing to file any return of tax required under the Code on or before the date
       prescribed therefore (including any extensions), unless such failure is due to reasonable
       cause and not to willful neglect;
   •   Willfully understating Federal tax liability, unless such understatement is due to
       reasonable cause and not to willful neglect; and
   •   Threatening to audit a taxpayer for the purpose of extracting personal gain or benefit.

The Commissioner of Internal Revenue may mitigate the penalty of removal for the misconduct
violations outlined above. The exercise of this authority shall be at the sole discretion of the
Commissioner and may not be delegated to any other officer. The Commissioner, in his/her
sole discretion, may establish a procedure that will be used to decide whether an individual
should be referred to the Commissioner for determination. Any mitigation determination by the
Commissioner in these matters may not be appealed in any administrative or judicial
proceeding.



                                                         April 1, 2012 – September 30, 2012         89
                                   TIGTA SEMIANNUAL REPORT TO CONGRESS




90   April 1, 2012 – September 30, 2012
         TIGTA SEMIANNUAL REPORT TO CONGRESS




                                Appendix V
           Implementing Section 989C of the
          Dodd-Frank Wall Street Reform and
                Consumer Protection Act
        Inspector General Peer Review Activity
       April 1, 2012 Through September 30, 2012

Last Peer Review Conducted on TIGTA Office of Audit

As part of the three-year cycle of independent peer reviews, on March 6, 2012, the
General Services Administration, Office of the Inspector General, began its review of
TIGTA’s Office of Audit. The review was completed September 25, 2012, and stated:

      In our opinion, the system of quality control for the audit organization of
      TIGTA in effect for the year ended March 31, 2012, has been suitably
      designed and complied with to provide TIGTA with reasonable assurance
      of performing and reporting in conformity with applicable professional
      standards in all material respects. Federal audit organizations can receive
      a rating of pass; pass with deficiencies; or fail. TIGTA has received a peer
      review rating of pass.




                                                 April 1, 2012 – September 30, 2012     91
                                   TIGTA SEMIANNUAL REPORT TO CONGRESS




92   April 1, 2012 – September 30, 2012
         TIGTA SEMIANNUAL REPORT TO CONGRESS




                              Appendix VI
              Data Tables Provided by the IRS
The memorandum copied below is the IRS’s transmittal to TIGTA. The tables that
follow the memorandum contain information that the IRS provided to TIGTA and consist
of IRS employee misconduct reports from the IRS Automated Labor and Employee
Relations Tracking System (ALERTS) for the period from April 1, 2012 through
September 30, 2012. Also, data concerning substantiated RRA 98 §1203 allegations
for the same period are included. IRS management conducted inquiries into the cases
reflected in these tables.




                                               April 1, 2012 – September 30, 2012   93
                                                TIGTA SEMIANNUAL REPORT TO CONGRESS



  Reports of Employees Misconduct for the Period
     April 1, 2012 through September 30, 2012
         Summary by Disposition Groups
            (Tables Provided by the IRS)

          Disposition              TIGTA         Administrative   Employee      Background      Totals
                               Investigations       Cases         Tax Matter   Investigations
                                                                    Cases
  Removal                                  41               65             9                1       116
  Separation of Probationary
  Employees                                 2               40             3                4        49
  Separation of Temporary
  Employees                                 0               15             0                2        17
  Resignation/Retirement                   35              113            23               17       188
  Suspensions                             102              243           131                0       476
  Reprimands                              100              459           342                6       907
  Counseling                               30              285           406               16       737
  Alternative Discipline                   23               63            40                0       126
  Clearance                                84              205            10                1       300
  Closed Without Action                   138              389            81               44       652
  Closed Without Action
  (Caution Statement)                     151              182           137               51       521
  Forwarded to TIGTA                        0               40             0                0        42
  Suspended – Waiting
  Supplemental                              0                2             0                0            2
  Termination for
  Abandonment of Position                   0               59             0                0        59
  Termination for Other
  Than Job Abandonment                      0                1             0                0            1
  Case Suspended Pending
  Employee Return to Duty                   1                1             0                0            3
  Prosecution Pending for
  TIGTA ROI’s                               4                0             0                0            4
  Total                                   711             2,162        1,185              142     4,200


Notes:
 *Columns containing numbers of two or less and protected by I.R.C. Section 6103 are annotated with a 0.

Source: Automated Labor and Employee Relations Tracking System (ALERTS)
This report is being produced in accordance with 26 USC § 7803(d)(2) and §4(a)2 of Treasury Delegation
Order 115-01, January 14, 1999.
Extract Date: Monday, October 01, 2012            Report ID = T1R3a




 94            April 1, 2012 – September 30, 2012
           TIGTA SEMIANNUAL REPORT TO CONGRESS



     Reports of Employee Misconduct for the Period
       April 1, 2012 through September 30, 2012
                   National Summary
              (Tables Provided by the IRS)

                                                               Cases Closed
                                   Conduct
     Inventory        Opening                                                               Closing
                                    Cases                                       Non-
     Case Type       Inventory                   Conduct                                   Inventory
                                   Received                     Duplicates    Conduct
                                                  Issues
                                                                               Issues


TIGTA
Investigations
ROI 98                      442           813          (711)           (12)          (0)         532

Administrative
Case 99                     580          2,283       (2,162)            (9)         (10)         682

Employee Tax
Compliance
Case 100                    541          1,193       (1,185)           (20)          (0)         529

Background
Investigations 101           81           127          (142)            (3)          (0)             63

Total                     1,644          4,416       (4,200)           (44)         (10)       1,806

Source: Automated Labor and Employee Relations Tracking System (ALERTS)

 This report is being produced in accordance with 26 USC § 7803(d)(2) and §4(a)2 of Treasury
 Delegation Order 115-01, January 14, 1999.
 Extract Date: Monday, October 01, 2012                Report ID = T1R1




98
   TIGTA Investigations (ROI) - Any matter involving an employee in which TIGTA conducted an
investigation into alleged misconduct and referred a ROI to IRS for appropriate action.
99
   Administrative Case - Any matter involving an employee in which management conducted an inquiry
into alleged misconduct.
100
    Employee Tax Compliance Case - Any conduct matter that is identified by the Employee Tax
Compliance program which becomes a matter of official interest.
101
    Background Investigation - Any matter involving a National Background Information Center
investigation into an employee’s background that is referred to management for appropriate action.


                                                         April 1, 2012 – September 30, 2012          95
                                                    TIGTA SEMIANNUAL REPORT TO CONGRESS



                         Summary of Substantiated
                       I.R.C. Section 1203 Allegations
                   Recorded in ALERTS for the Periods
                 April 1, 2012 through September 30, 2012
                        (Tables Provided by the IRS)

                                                                    Removed        Penalty          In
                                        Resigned/     Probation
 § 1203 Violation         Removals                                  On Other      Mitigated     Personnel          Total
                                         Retired      Separation                       102
                                                                    Grounds                      Process

   Seizure Without
      Approval                 0             0            0              0             0              0             0
  False Statement
    Under Oath                 0             0            0              0             0              0             0
  Constitutional &
 Civil Rights Issues           0             0            0              0             1              0             1
     Falsifying or
     Destroying
      Records                  0             0            0              0             0              1             1

  Assault or Battery
                               0             0            0              0             0              0             0
     Retaliate or
      Harass                   0             0            0              0             0              0             0

  Misuse of § 6103
                               0             0            0              0             0              0             0
  Failure to Timely
        File/
  Under-statement
   of Tax Liability            6             3            0              0             35            35             82
  Threat to Audit for
   Personal Gain               0             0            0              2             1              0             3

        Totals                 6             3            1              4             37            36             87

Notes:
   *Columns containing numbers of two or less and protected by I.R.C. Section 6103 are annotated with a 0.

 Source: Automated Labor and Employee Relations Tracking System (ALERTS) and 1203 Review Board
 records.
 Extract Date: Monday, October 1, 2012

       102
          The cases reported as “Removals” and “Penalty Mitigated” do not reflect the results of any third party
       appeal.




       96            April 1, 2012 – September 30, 2012
         TIGTA SEMIANNUAL REPORT TO CONGRESS




                   Glossary of Acronyms
ACTC                Additional Child Tax Credit

ALERTS              Automated Labor and Employee Relations Tracking System

AWSS                Agency Wide Shared Services

CADE                Customer Account Data Engine

CLC                 Constitutional Common Law Court

COTR                Contracting Officer’s Technical Representatives

CSIRC               Computer Security Incident Response Center

CY                  Calendar Year
DOT                 Department of Transportation

EDD                 Employment Development Department

EITC                Earned Income Tax Credit

EOI                 Exchange of Information

FAR                 Financial Activity Report

FBI                 Federal Bureau of Investigation

FFMIA               Federal Financial Management Improvement Act of 1996

FLETA               Federal Law Enforcement Training Accreditation Board

FY                  Fiscal Year

GDT                 General Department of Taxation

I&E                 Inspections and Evaluations

IPERA               Improper Payment Elimination and Recovery Act of 2010

I.R.C.              Internal Revenue Code

IRM                 Internal Revenue Manual




                                                April 1, 2012 – September 30, 2012   97
                                       TIGTA SEMIANNUAL REPORT TO CONGRESS




 IRS                     Internal Revenue Service

 ITIN                    Individual Taxpayer Identification Number
 IVES                    Income Verification Express Services
 MOU                     Memorandum of Understanding
 NFTL                    Notices of Federal Tax Lien
 NTEU                    National Treasury Employees Union
 OA                      Office of Audit
 OFDP                    Office of Online Fraud Detection and Prevention

 OI                      Office of Investigations
 OIG                     Office of Inspector General
 OMB                     Office of Management and Budget
 ONDCP                   Office of National Drug Control Policy
 OTA                     Office of Technical Assistance
 PII                     Personally Identifiable Information
 PTIN                    Preparer Tax Identification Number
 RATB                    Recovery Accountability and Transparency Board
 ROTER                   Records of Tax Enforcement Results
 RRA 98                  IRS Restructuring and Reform Act of 1998
 SSN                     Social Security Number
 TIEA                    Tax Information Exchange Agreement
 TIGTA                   Treasury Inspector General for Tax Administration

 TTY/TDD                 Tele-Typewriter/Telecommunications Device

 TY                      Tax Year

 USAID                   United States Agency for International Development




98       April 1, 2012 – September 30, 2012
TIGTA SEMIANNUAL REPORT TO CONGRESS




                                 April 1, 2012 – September 30, 2012   99
                                    TIGTA SEMIANNUAL REPORT TO CONGRESS




100   April 1, 2012 – September 30, 2012
